<html>
<title> - ESEA REAUTHORIZATION: MEETING THE NEEDS OF SPECIAL POPULATIONS</title>
<body><pre>[Senate Hearing 111-1120]
[From the U.S. Government Publishing Office]







                                                       S. Hrg. 111-1120

                         ESEA REAUTHORIZATION: 
                MEETING THE NEEDS OF SPECIAL POPULATIONS

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

        EXAMINING ELEMENTARY AND SECONDARY EDUCATION ACT (ESEA) 
 REAUTHORIZATION, FOCUSING ON MEETING THE NEEDS OF SPECIAL POPULATIONS

                               __________

                             APRIL 29, 2010

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



      Available via the World Wide Web: http://www.gpo.gov/fdsys/




                  U.S. GOVERNMENT PRINTING OFFICE
56-322 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming
BARBARA A. MIKULSKI, Maryland        JUDD GREGG, New Hampshire
JEFF BINGAMAN, New Mexico            LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington             RICHARD BURR, North Carolina
JACK REED, Rhode Island              JOHNNY ISAKSON, Georgia
BERNARD SANDERS (I), Vermont         JOHN McCAIN, Arizona
SHERROD BROWN, Ohio                  ORRIN G. HATCH, Utah
ROBERT P. CASEY, JR., Pennsylvania   LISA MURKOWSKI, Alaska
KAY R. HAGAN, North Carolina         TOM COBURN, M.D., Oklahoma
JEFF MERKLEY, Oregon                 PAT ROBERTS, Kansas
AL FRANKEN, Minnesota                
MICHAEL F. BENNET, Colorado          

                      Daniel Smith, Staff Director

     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                  (ii)









                            C O N T E N T S

                               __________

                               STATEMENTS

                        THURSDAY, APRIL 29, 2010

                                                                   Page
Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming, 
  opening statement..............................................     3
Bennet, Hon. Michael F., a U.S. Senator from the State of 
  Colorado.......................................................     4
Mikulski, Hon. Barbara A., a U.S. Senator from the State of 
  Maryland.......................................................     5
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....     5
Hinojosa, Ed.D., Superintendent, Dallas Independent School 
  District, Dallas, TX...........................................     6
    Prepared statement...........................................     8
Medina, Carmen, Chief of Migrant Education, Bureau of Community 
  and Student Services, Pennsylvania Department of Education, 
  Harrisburg, PA.................................................    14
    Prepared statement...........................................    16
Hundley, Lucinda, Assistant Superintendent of Student Support 
  Services, Littleton Public Schools, Littleton, CO..............    18
    Prepared statement...........................................    21
Ross, Denise, Supervisor, Homeless Education Office, Prince 
  George's County Public Schools, Maryland.......................    24
    Prepared statement...........................................    26
VanDyke, Kayla, Student, Eagan, MN...............................    29
    Prepared statement...........................................    32

                                 (iii)


 
                   ESEA REAUTHORIZATION: MEETING THE 
                      NEEDS OF SPECIAL POPULATIONS

                              ----------                              


                        THURSDAY, APRIL 29, 2010

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
SD-430, Dirksen Senate Office Building, Hon. Tom Harkin, 
chairman of the committee, presiding.
    Present: Senators Harkin, Mikulski, Merkley, Franken, 
Bennet, Enzi, Isakson, and Murkowski.

                  Opening Statement of Senator Harkin

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will please come to order.
    I would like to thank everyone for being here today for our 
second ESEA hearing in less than 24 hours. Let no one doubt 
that a strong reauthorization of this legislation is a top 
priority for this committee.
    Today, we are going to explore another tremendously 
important facet of K through 12 education--what we, as a 
country, need to do to meet the needs of special student 
populations to ensure that all students have access to a high-
quality education that prepares them for college or a career 
after graduation.
    Secretary Duncan has correctly called education ``the civil 
rights issue of our time.'' Our public education system was 
founded in the 19th century, at a time when, for the most part, 
only affluent white males were given access to an education. 
Over the past century, we have taken tremendous steps to change 
that and to guarantee that all students, regardless of 
background, have access to an education that gives them the 
opportunity to live a successful and fulfilling life.
    However, just being allowed into the classroom isn't 
enough. To be able to reap the real benefits of an education, 
students must be given the tools and support they need to be 
successful. For some students, this means providing them with 
extra tutoring, therapy, or other accommodations that allow 
them to access the academic material and demonstrate the 
knowledge they have mastered. Other students may be struggling 
to learn English at the same time they are trying to learn math 
and science and require additional support to gain the language 
proficiency they need to learn and perform in the classroom.
    We must also recognize, as we have heard in previous 
hearings, that students don't just check their home lives at 
the school door each morning. Students with unstable home lives 
require extra stability and support while they are at school to 
enable them to stay in class and to keep up with their peers. 
For a student, simple things like accommodations or support 
from a school counselor can mean the difference between the 
despair of falling behind and the fulfillment of meeting high 
expectations.
    This is especially true in the case of students with 
disabilities. Under the Individuals with Disabilities Education 
Act, IDEA, which is celebrating its 35th anniversary this year, 
the Federal Government provides assistance to school districts 
to help them meet their constitutional obligation to provide a 
free and appropriate public education to children with 
disabilities.
    More recently, the No Child Left Behind Act has focused on 
ensuring that students with disabilities have equal access to 
expectations for high achievement. By holding schools 
accountable for the success of all students, including students 
with disabilities, No Child Left Behind established the premise 
that every child can and should learn.
    Over the past decade, No Child Left Behind has shown that 
students with disabilities can meet high standards when given 
the proper instruction. Before No Child Left Behind was 
enacted, less than one third of fourth grade students with 
disabilities scored at the basic level on the NAEP math exam, 
and only 6 percent were proficient. By 2007--just 7 years 
later--the percentage of students with disabilities scoring at 
the basic level had doubled to 60 percent, and the number of 
proficient students had more than tripled to 19 percent. That 
is a remarkable record, showing that kids with disabilities can 
learn and can grow.
    However, while this improvement is heartening, an 
achievement gap still exists between students with disabilities 
and their peers who do not have disabilities. The graduation 
rate for students with disabilities is still just 56 percent, 
nearly 15 points lower than students who do not have 
disabilities.
    As we reauthorize ESEA, we must focus on ways to close this 
gap. This means not only continuing to hold schools accountable 
for the success of students with disabilities, but investing in 
the resources for success--for example, training more special 
education teachers and providing our general education teachers 
additional training in how to teach students with disabilities 
in an integrated classroom. It means making investments to 
ensure that assessments are appropriate and that these 
assessments give us valid information on the performance of all 
students, including students with disabilities.
    At our hearing today, we will hear not just about students 
with disabilities, but also other groups of students who face 
different challenges. Migrant students, foster students, 
homeless students, English language learners--all have 
different needs and require their own set of supports to ensure 
that they can access the quality education that they are 
entitled.
    While we must be mindful of each student's unique 
background and provide them with what they need to be 
successful, we must never allow ourselves to accept lower 
expectations for a student because of who they are or where 
they come from.
    We must recognize that more and more students come from 
diverse backgrounds with diverse needs. However, instead of 
viewing this as an obstacle or a burden, we must look at it as 
an opportunity. I say that because in the modern world, it is 
no longer possible to remain isolated in small, homogeneous 
communities.
    Our society puts a premium on being able to communicate and 
interact with people from diverse backgrounds, from countries 
across the globe. We know students who grow up and learn in 
diverse classrooms enter the world with an understanding and 
appreciation for people unlike themselves.
    Diversity is one attribute, I think, that distinguishes 
America from many others. It makes us more creative, 
entrepreneurial, and successful. I believe it is a strength. We 
must ensure that our education system is preparing all students 
to meet the demands of the 21st century.
    With that, I would turn to our Ranking Member, Senator 
Enzi.

                   Opening Statement of Senator Enzi

    Senator Enzi. Thank you, Mr. Chairman.
    I appreciate you holding this hearing. It is always good to 
review the special populations because it is amazing how many 
there are. As you said in your comments, it is also tremendous 
what the United States does, as opposed to a number of other 
countries which start kicking kids out of school regardless of 
special needs at a very early age.
    Meeting the needs of special populations in our schools 
today is an important issue for this committee to discuss, and 
I want to thank the witnesses for joining us today to share 
their knowledge and experience. We have been fortunate to 
witness progress over the last few decades in the education of 
these populations.
    The No Child Left Behind Act took us into a new level by 
including disaggregation and reporting of student achievement 
data for students with disabilities and English language 
learners. The sunshine effect this had for these students and 
the support they receive in the classroom has been amazing. 
Data from the States show that these students can achieve high 
goals and standards when provided with the necessary services 
and supports.
    The Elementary and Secondary Education Act recognizes that 
all the special populations represented here by our witnesses 
today have specific support needs that often require dedicated 
funding. Embodied within ESEA are programs for migrant 
students, students who have been neglected or delinquent, 
students re-entering school from correctional institutions, 
Native American students, Native Hawaiian students, Alaska 
Native students, and students who are English language 
learners. Under the umbrella of the ESEA reauthorization, we 
will also review and reauthorize the program for homeless 
children and youth.
    Finally, while ESEA contains many provisions specific to 
students with disabilities, the Individuals with Disabilities 
Education Act, or IDEA, is devoted specifically to that 
population of students.
    Not only are these programs complex, but the needs of the 
populations targeted by these programs are very complex. We 
must make sure that in meeting the needs of these populations, 
we don't hamstring the local providers with too many burdensome 
and restrictive requirements. Those closest to these students 
need the flexibility to best meet their unique needs.
    Today, I am interested in hearing how those populations 
have been served. I am also interested in learning how we can 
continue the successes we often see in the K through 12 
education system as these students transition to other 
education, training, and workforce opportunities.
    I want to welcome all the witnesses and thank them for 
being here to share their knowledge and their expertise and 
probably even to take some written questions because not 
everyone is able to be here for a number of reasons. But those 
answers will help us, too.
    Thank you.
    The Chairman. Thank you, Senator Enzi.
    I will introduce some of our witnesses, and I know some of 
my colleagues want to introduce witnesses from their respective 
States.
    Our first witness is Dr. Michael Hinojosa, who is the 
superintendent of the Dallas Independent School District in 
Dallas, TX. His career in Texas public education spans more 
than 30 years. A report by the Brown Center on Education Policy 
at the Brookings Institution stated that Dallas Independent 
School District has improved more than any other urban district 
in Texas and more than all but one urban district in the 
country in narrowing the achievement gap over the last 5 years.
    Dr. Hinojosa's recognitions have included his selection as 
Superintendent of the Year by the University of Texas and as 
Texas Superintendent of the Year by the Texas Association of 
School Boards. He was named a distinguished alumnus by the 
College of Education at Texas Tech University, and is a past 
president of the Texas Association of School Administrators.
    Next, we have Carmen Medina, the chief of the Division of 
Student Services and Migrant Education at the Pennsylvania 
Department of Education. Prior to coming to that department in 
2004, Ms. Medina served as the academic programs director for a 
consortium of school districts in Adams County, PA, where she 
oversaw several social and academic programs, including 21st 
century community learning centers for migrant students. She 
has also worked as an assistant researcher with Penn State 
University.
    I am told that Senator Bennet would like to introduce our 
next witness, Lucinda Hundley.

                      Statement of Senator Bennet

    Senator Bennet. Thank you, Mr. Chairman.
    It is a great pleasure and honor for me to introduce to the 
committee Lucinda Hundley. She is the assistant superintendent 
of the Littleton Public Schools in Colorado and is responsible 
for student support services and serves as the director of 
special education. She has the difficult job of trying to meet 
the needs of all students.
    Under her leadership, Ms. Hundley has made tremendous 
progress in improving results for all students, including 
students with disabilities, and closing the achievement gap.
    I want to welcome her here, and we look forward to your 
testimony.
    Thank you for coming.
    The Chairman. Thank you very much, Senator.
    Senator Mikulski, I recognize you for purposes of 
introduction.

                     Statement of Senator Mikulski

    Senator Mikulski. Thank you very much, Mr. Chairman.
    It is really an honor of mine to introduce Denise Ross to 
you. Ms. Ross runs the homeless education program in Prince 
George's County, a county contiguous to the District of 
Columbia. One presumes that it is highly affluent, but, wow, 
does it have its challenges.
    Denise has been working in the Prince George's schools for 
25 years. She started as a speech and language pathologist and 
then became a supervisor for the county's homeless ed program 5 
years ago. She is going to bring a lot to the table as she 
shares with you her experiences, her challenges, and her 
recommendations.
    Under her leadership, the county serves 2,500 homeless 
children. Often, it can be difficult for those students to 
learn to read, but these kids need a ride to school, new 
clothes when they have none, school supplies to do their work, 
and tutoring services, so they don't fall behind. Through Mrs. 
Ross's own creativity, resourcefulness, and grit, she has been 
able to provide these services to homeless students, including, 
most recently, to make sure these guys and gals have hearing 
aids and eyeglasses, something very special, I know, to your 
work, Senator Harkin.
    So when we think about improving the programs for special 
children, our homeless should at least have a home in the 
school system, and I think Mrs. Ross will give us a lot of 
practical suggestions, and we are happy to introduce her to the 
committee.
    The Chairman. Thank you very much, Senator Mikulski.
    Now I will turn to Senator Franken for purposes of an 
introduction.

                      Statement of Senator Franken

    Senator Franken. Thank you, Mr. Chairman.
    I am just delighted and honored to introduce Kayla VanDyke. 
Kayla is a high school senior in Eagan, MN. She is also in 
foster care and has lived in seven different foster care 
placements. She has lived through extended periods of 
homelessness.
    Through the force of her determination and incredible 
innate ability, Kayla has overcome tremendous adversity. 
Drawing on her life experiences, she will provide us with 
guidance on how to address the educational challenges that she 
and other foster and homeless youth have experienced.
    The Chairman. Thank you very much, Senator.
    Welcome, Kayla.
    I welcome all our witnesses today. We will now hear your 
opening statements, starting with Dr. Hinojosa and working our 
way down the panel. Your statements will be made a part of the 
record in their entirety.
    Dr. Hinojosa, please proceed.

 STATEMENT OF MICHAEL HINOJOSA, Ed.D., SUPERINTENDENT, DALLAS 
            INDEPENDENT SCHOOL DISTRICT, DALLAS, TX

    Mr. Hinojosa. Thank you, Mr. Chairman.
    Senator Harkin, Ranking Member Enzi, and members of the 
committee, thank you for giving us the opportunity to bring 
some input on this very important topic.
    I am Michael Hinojosa, superintendent of schools for the 
Dallas Independent School District. I have been a 
superintendent in Dallas for the last 5 years. I have been a 
superintendent or a CEO for approximately 16 years in the State 
of Texas.
    I, too, though, am an immigrant, and my father brought the 
10 of us--or 8 of us to the greatest country in the world so 
that we could get an education. It is refreshing that this is 
important to this committee.
    Let me talk a little bit about the context of which Dallas 
operates. Dallas is the 14th largest district in the country, 
157,000 students, 5,000 of which are homeless, 55,000 English 
language learners. There aren't many districts in the country 
that have 55,000 students, much less 55,000 English language 
learners.
    Eighty-seven percent are economically disadvantaged, 67 
percent Latino, 27 percent African-American, and 4 percent 
white. The context is important because we cannot ignore any 
student group, much less English language learners, which is 
the group that I am speaking about, if we are going to move our 
entire system forward.
    You mentioned the Brookings Institution, and we are very 
proud of that fact. It was unbeknownst to us that Ed.D study 
was going on. So we do appreciate that. Also, the Council of 
Great City Schools identified us--along with New York City, St. 
Paul, and San Francisco--for having significant progress on 
English language learners.
    But how we got there is important, and I want to say that 
it wasn't just a focus on English language learners. We had a 
Dallas Achieves! transformation plan that was our strategic 
plan over the last 5 years, where we had a very specific 
curriculum that was written for every subject, for every 
student group at every grade level. The teachers help us write 
the curriculum, and it became a big part of what we implement 
on a daily basis.
    We have also simultaneously during those 5 years developed 
a dual language program. Two types of dual language--one-way, 
and that is for one group of students who are monolingual 
Spanish speakers who are required to acquire English 
proficiency. Two-way dual language is where we have multiple 
groups or groups of English speakers who want to learn Spanish, 
along with Spanish speakers that need to learn English. We have 
implemented that program over the last 5 years with significant 
success.
    One of the reasons that we have been able to have the 
success is nothing can happen unless you have great teachers, 
and we have had to go and hire teachers. We had--when I was 
hired 5 years ago, we had a significant number of--we had 1,000 
classrooms in which we were not providing services to English 
language learners because we did not have the teachers to do 
it.
    We had to do everything possible to do it. We had to go to 
Grow Our Own Teachers. We had to go all over the State of 
Texas. We had to go to Puerto Rico, Mexico, and Spain to try to 
hire the teachers that could provide these services that these 
students needed. It was a significant task, but now I am 
pleased to say that we have less than 25 classrooms where we 
don't have qualified teachers to teach these students that have 
great need.
    It is always hard to determine what caused something to 
happen, but I think the fact that Dallas has had a 15-year 
history of a value-added system, a growth model that we have 
had in place for 15 years, and the stakes have gotten a lot 
higher recently, but because we have had that, we know that we 
take students where they are, and we have to move them. That is 
a great equalizer, especially for English language learners, 
when they may be behind academically.
    I gave you some charts. The charts just signify that our 
English language learners compete with other student groups in 
many areas, and part of it is because of our expectations in 
the programs that we have had.
    As you move forward to reauthorization of Elementary and 
Secondary Education Act, what I would like to leave you with, 
and I only have a little bit of time left so I will get to that 
quickly. No. 1, the growth model is very important because the 
premise of a growth model is you take the students where they 
are and then you add value. This is extremely important for 
English language learners because of their level of 
proficiency.
    You also need to remember that second language, academic 
language acquisition takes time. Students will fool you. They 
will talk to you in English that you understand, but that 
doesn't mean they are academically literate. That doesn't mean 
they can read or write. So it takes time to acquire those 
skills. It is very important that you have the appropriate 
measures in place for that to happen.
    Right now, we are held accountable for student groups 
including what is called limited English proficient. But 
schools should be given credit for taking students who are 
limited English proficient and became proficient. They are no 
longer LEP, which is, by definition, lack proficiency. But they 
are still English language learners, and many districts, 
including Denver and others, have made a lot of progress. We 
have data that shows here that those districts, the students 
that were in English language learner programs do better than 
students that denied services or parents that denied services.
    So you have to be in it for the long haul. There is not a 
silver bullet.
    A couple of other things, as my time is expiring, and I 
will be glad to answer your questions. One of the things that 
we have to be careful of, we have a graduation rate that you 
mentioned, Senator, that is measured by everyone. We need to 
make sure there is not a disincentive because that graduation 
rate by the Federal Government is calculated for how many kids 
graduated in 4 years.
    It takes a long time to acquire language. Most of the 
students that we get, we get at secondary level. Many of them 
are unschooled, have had no schooling. So it is very difficult 
for them to acquire any language. They are not literate in 
anything.
    So we should be given an incentive or credit for keeping 
students in school after the 4 years, and there should be an 
incentive program so that doesn't count against the school, 
which may be in a high refugee population or a very urban 
setting where you have students--we should be given credit for 
making sure the kids don't walk the streets and stay in school 
and graduate.
    I have covered most of my areas, but I would also say that 
as you go through the reauthorization, I know there is some 
talk about having formula funding for title I and then some 
competitive funding for others. I would just remind us that, by 
definition, if it is competitive, there are winners and losers, 
and there are a lot of districts that depend on other Federal 
funds and title funds to help support English language learners 
and every student group that you are going to hear from today.
    So I will conclude with my comments at this point and 
entertain any questions as appropriate by the chairman.
    [The prepared statement of Mr. Hinojosa follows:]
             Prepared Statement of Michael Hinojosa, Ed.D.
    Good Morning Senator Harkin, Ranking Member Enzi, and members of 
the committee, I am Michael Hinojosa, Superintendent of Schools for the 
Dallas Independent School District, Dallas, TX. I have been 
superintendent in Dallas for 5 years and a superintendent in Texas for 
15 years.
    I appreciate this opportunity to discuss the critical area of 
Teaching and Learning for English Language Learners.
    The Dallas ISD educates about 157,000 students of which 5,000 are 
homeless, 55,000 are English Language Learners (ELL), 87 percent are 
economically disadvantaged, 67 percent are Latino, 27 percent are 
African-American, and 4 percent are white.
    We are very proud in Dallas of improvements we have made in 
Teaching and Learning for our students. I would like to highlight a few 
of the improvements we have made to enhance the education of our 
English Language Learners. I also will mention some of the accolades we 
have received as a result of our work such as being cited by the 
Brookings Institution in 2008 which indicated that the Dallas ISD was 
the most-improved urban school district in Texas and next to New 
Orleans, the second most-improved urban district in America in closing 
the achievement gaps among student groups.
    We are also proud to be one of four districts in a study by the 
Council of the Great City Schools for improving learning for ELL 
students along with St. Paul, New York City, and San Francisco.
    The district has seen significant systemwide reform through an 
effort titled Dallas Achieves!, which included a specific curriculum in 
all subjects--what every student should know and be able to do in every 
subject. Dallas also implemented a district-wide dual language program 
for all elementary schools--both one-way and two-way dual language. The 
goal for all students in the program is to be academically literate in 
two languages.
    We have also ensured that we have qualified teachers in every 
classroom by reducing vacancies from 1,000 to less than 25 classrooms 
(over a 5-year period) with bilingual teachers qualified to serve 
student needs . . . traveled to Mexico, Puerto Rico, Spain, and South 
America; developed a grow our own program; and traveled the entire 
State to have enough qualified teachers for student needs
    To ensure quality teachers, we have more than 15 years of history 
with a value-added (growth) model of measuring the effectiveness of 
teachers in student achievement gains.\1\
---------------------------------------------------------------------------
    \1\  Attached slides indicate that LEP students are out-performing 
State LEP students and in some instances other student groups and 
certain grade levels in certain subjects due to the strength of the 
dual language program.
---------------------------------------------------------------------------
                                     
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               State vs. Dallas ISD Average Scale Scores
State and Dallas ISD Reading TAKS Average Scale Score by Student Group, 
                               Grades 3-5
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


State and Dallas ISD Reading TAKS Average Scale Score by Student Group, 
                               Grades 6-8
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


State and Dallas ISD Reading TAKS Average Scale Score by Student Group, 
                              Grades 9-11
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

State and Dallas ISD Reading TAKS Average Scale Score by Student Group, 
                               Grades 3-5

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


State and Dallas ISD Reading TAKS Average Scale Score by Student Group, 
                               Grades 6-8
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


State and Dallas ISD Reading TAKS Average Scale Score by Student Group, 
                              Grades 9-11
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

       2009 TAKS Percent Passing by LEP Status, District Total, 
                           and Grade Grouping

   Percent of Grades 3-5, 6-8 and 9-11 Students Passing English TAKS 
           Reading by LEP Status and Grade Group, Spring 2009
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Percent of Grades 3-5, 6-8 and 9-11 Students Passing English TAKS 
         Mathematics by LEP Status and Grade Group, Spring 2009
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In reauthorization of ESEA, I would like the committee to consider 
the following key issues:

    <bullet> A growth model will level the playing field for all 
students . . . the premise of growth models is to take the students 
where they are and measure the growth of individuals. The bill should 
consider the fact that more than 50 percent of new arrivals enter 
secondary schools, many unschooled or under-schooled. There are special 
hardships for communities that have refugee centers.

    Please also be reminded that academic language acquisition takes 
multiple years to accomplish. Students who are literate in one language 
can acquire literacy more readily in a second language. Schools should 
be given credit for students who have gained proficiency and literacy 
under their instructional program. Thus Limited English Proficient 
students should be part of a larger student group that includes English 
Language Learners.
    We would like to see the bill retain current provisions regarding 
the allowable use of State assessments in the student's native language 
and would like to insert the requirement of consistency with the 
language of instruction.
    Regarding assessments, the English Language Proficiency Assessment 
should be used, but not for accountability. Also required should be 
annual assessments in all domains to monitor progress after initial 
enrollment and at critical transition points. Codify current regulatory 
provision that recent immigrant students with limited English 
proficiency not be required to participate in ELA and math State 
assessment in their first year in the United States.
    District's should be given incentives to keep students in school 
who have not graduated in 4 years. Many immigrant students are over-age 
and under-credited and will count against the cohort graduation 
calculations. It should not be a disincentive for districts and schools 
to continue to educate students who will be counted as drop-outs. 
Credit should be given for drop-ins.
    Many districts rely on various formula title funds to support 
efforts for English Language Learners. If some of these funds become 
competitive, then there will be districts that by definition will be 
losing these funds to support these student groups.
    Thank you for the opportunity to provide this testimony.

    The Chairman. Thank you, Dr. Hinojosa. That was a very, 
very good statement.
    Now we turn to Ms. Medina.
    Ms. Medina.

STATEMENT OF CARMEN MEDINA, CHIEF OF MIGRANT EDUCATION, BUREAU 
 OF COMMUNITY AND STUDENT SERVICES, PENNSYLVANIA DEPARTMENT OF 
                   EDUCATION, HARRISBURG, PA

    Ms. Medina. Good morning, Chairman Harkin, Senator Enzi, 
and distinguished members of the committee.
    I am Carmen Medina. I am chief of the Division of Student 
Services and Migrant Education at the Pennsylvania Department 
of Education.
    I want to thank you for your invitation and for the 
opportunity to speak to you today about the importance of the 
Migrant Education Program and what is the difference it makes 
in Pennsylvania and across the Nation.
    The Federal Migrant Education Program supports the goal of 
ensuring that every child in America receives a world-class 
education that prepares them for responsible citizenship, 
further learning, and productive employment. I welcome this 
opportunity.
    Migrant workers are defined as those individuals who travel 
from place to place to find seasonal or temporary work in such 
industries as agriculture, dairy farming, fishing, and food 
processing. The average migrant family moves three to five 
times annually. Such mobility is particularly difficult to the 
children of migrant families and detrimental to their 
educational achievement.
    Mobility as a risk factor for academic achievement is 
combined with the fact that many migrant children are not 
native in the English language and need instruction in English 
as a second language. Evidence shows that migrant children are 
usually 3 to 5 years behind nonmigrant students in grade level 
and are at an increased risk of dropping out of school.
    The Migrant Education Program was established in 1966 as 
part of the Elementary and Secondary Education Act to address 
the unique needs of these children and operates in all 50 
States. These funds are available to provide educational and 
support services to migrant children. In Pennsylvania, we use 
the funds to provide extended learning time, in-home support 
services, language instruction, out-of-school youth programs, 
dropout re-engagement, high-quality preschool instruction, 
post-secondary enrollment support, and engage the parents in 
the education of their children.
    A child is considered migrant when they are between the 
ages of 3 to 21 years old, and they haven't graduated from the 
high school or have a high school equivalency certificate. 
Being a migrant worker or a parent, spouse, or guardian who is 
a migrant worker, we will consider them if they have children 
under the age of 21 to qualify for this program. They have to 
have a move, a qualified move in the preceding 36 months, and 
they are coming to seek that line of employment that I 
mentioned before, and they must move from one school district 
to another.
    So you must imagine how it is when a child is moving three 
to five times a year. They don't speak the language. They don't 
know the community. And that is when the migrant program comes 
to work.
    In Pennsylvania, we serve 139 school districts in 46 
counties. In this past year, 2008-2009, we served a total of 
5,409 eligible children and youth. This included youth of 
Hispanic, Asian, 
African-American, and Caucasian descent across grade and age 
levels.
    Migrant is not about ethnicity or race. Being migrant is a 
way of living, and also it is very important to notice that 
being a migrant is not the same as being immigrant.
    In Pennsylvania, 82 percent of these children are not 
fluent in English, and we serve over 19 percent that are 
preschool. The Migrant Education Program is an essential part 
of the Pennsylvania Department of Education strategies to 
ensure that all students receive the necessary support to be 
successful in school and beyond by taking a holistic approach 
to student assistance.
    We provide summer activities. That is one of the things 
that when it comes to reauthorization we are strongly 
supporting, and we ask to be considered to continue summer 
support. Because when you have families arrive into an area 
because, summer, that is where the crops are, the migrant 
program tends to be the first point of educational services and 
assistance for that family, to connect the family not only to 
the schools, but connect the families as well to their new 
community.
    They will receive English as a second language instruction 
during summer programs, and also other instruction and other 
connections to make sure when the school year starts, the child 
and the family are prepared for school. ESL and other 
instruction is essential to prevent the ``backslide'' during 
which English language learners and children from low-income 
households, where they can lose up to 3 months.
    I don't have too much time left, but I want to leave you 
with a quote of one of our former migrant students. This 
student is currently attending Penn State University. He 
graduated last year from Philadelphia School District, and he 
came from Cambodia.
    When I talked to him, he asked me to share this quote with 
you.

          ``When I first arrived in Philadelphia, I was 
        completely clueless. I didn't even know how to find my 
        way home from school. Everything was different from 
        where I came from. For a while, I just stayed in my 
        house, and my computer became my best friend. I was 
        scared and hiding, and I didn't even think I would ever 
        get a good job after high school. I was sad and 
        frustrated.
          ``But along came the Pennsylvania Migrant Education 
        Program, and my life changed. I was amazed at how many 
        people had the same background as I did. Once in the 
        program, I got to see many beautiful places and made my 
        college and career visits.
          ``So many nice people have helped me with so many of 
        my problems. Without the Pennsylvania Migrant Education 
        Program, I would not have the courage to stand and talk 
        about my challenging life.''

    And like I said, this young man is a sophomore currently at 
Penn State University, and this is one of the many examples 
that we have of success stories at the Migrant Education 
Program. One of them is actually sitting here in the hearing 
room and is the national director of the Office of Migrant 
Education.
    She was a former migrant student in Texas, and then she 
turned to go into education. She was a teacher. She was a 
school principal. Now she has her doctorate in education, and 
we are very proud of her, Dr. Lisa Ramirez, and--over there.
    [Applause.]
    She is a product of the Migrant Education Program, and she 
is one of the many stories we have across the Nation.
    So we ask you to keep funding the Migrant Education 
Program. We also ask that you will receive the Interstate 
Migrant Education Council's report, and there are certain 
recommendations in there. And we ask you to be able to review 
those recommendations, and among them is to extend eligibility 
and the funding of children from birth to 21. We feel it is 
very important to reach the family very, very young.
    Thank you.
    [The prepared statement of Ms. Medina follows:]
                  Prepared Statement of Carmen Medina
    Good morning Chairman Harkin, Senator Enzi, and distinguished 
members of the committee. I am Carmen Medina, Chief of the Division of 
Student Services and Migrant Education at the Pennsylvania Department 
of Education. I want to thank you for the invitation to speak to you 
today about the Migrant Education Program and the importance of this 
program to migrant children and their families in Pennsylvania and 
across the Nation.
    The Federal Migrant Education Program supports the goal of ensuring 
that every child in America receives a world-class education that 
prepares them for responsible citizenship, further learning, and 
productive employment. I welcome this opportunity to share with you the 
experience of the Commonwealth of Pennsylvania and my thoughts on why 
the support for the Migrant Education Program should be continued 
through the Elementary and Secondary Education Act, as outlined in the 
President's Blueprint for ESEA Reauthorization.
    Let me start by calling your attention to an analysis of the ESEA 
Blueprint recently released by the Interstate Migrant Education Council 
or IMEC, which is attached to my written testimony. This analysis, in 
which I took part, highlights aspects of the proposed ESEA 
reauthorization which are of particular benefit to migrant children and 
their families. The analysis also makes recommendations to strengthen 
several sections of the blueprint that pertain directly to migrant 
children, such as expanding eligibility for program services to 
children from birth to age 21 and better defining certain key terms 
related to migrant children.
    The expansion of eligibility to include children from birth to age 
3 is particularly important. We know that early intervention services 
can have a profound positive impact on children at a high risk of 
academic failure. Including these children in the Migrant Education 
Program will enable States to offer these services to the youngest 
migrant children. Pennsylvania has been using State resources to fund 
these important services to very young children and we are seeing the 
benefit of serving these children during these vital developmental 
years.
    Migrant workers are defined as those individuals who travel from 
place to place to find temporary work in such industries as 
agriculture, dairy farming, fishing and food processing. The average 
migrant family moves three to five times annually. Such mobility is 
particularly difficult on the children of migrant families and 
detrimental to their educational achievement. Mobility as a risk factor 
for academic achievement is combined with the fact that many migrant 
children are not native English speakers and need instruction in 
English as a second language. Evidence shows that migrant children are 
usually 3 to 5 years behind non-migrant students in grade level and are 
at an increased risk of dropping out of school. The Migrant Education 
Program was established in 1966 as part of the Elementary and Secondary 
Education Act to address the unique needs of these children and 
operates in all 50 States, the District of Columbia and Puerto Rico.
    The Migrant Education Program makes Federal funds available to 
States to provide educational and support services to migrant children, 
youth and their families. The services offered through the Migrant 
Education Program are intended to help reduce the impact on the 
educational achievement of migrant children caused by their mobility, 
language and other barriers. In Pennsylvania, we provide the following 
types of services to migrant children and their families:

    <bullet> Extended learning time, both during the school day and 
outside of school hours;
    <bullet> In-home support services;
    <bullet> Language instruction and cultural support;
    <bullet> Out-of-school youth programs and dropout re-engagement;
    <bullet> High quality pre-school instruction;
    <bullet> Student leadership programs;
    <bullet> Post-secondary enrollment support; and
    <bullet> Activities to engage parents in the education of their 
children.

    Migrant students are identified and recruited to the Migrant 
Education Program based on several eligibility criteria. Currently, to 
be eligible for the program in Pennsylvania, the child or youth must:

    <bullet> Be between the ages of 3 and 21 years old and not 
graduated from high school or hold a high school equivalency 
certificate;
    <bullet> Be a migrant worker or have a parent, spouse, or guardian 
who is a migrant worker;
    <bullet> Have moved within the preceding 36 months in order to 
obtain or seek employment or accompany a parent, spouse, or guardian in 
obtaining or seeking temporary or seasonal employment in qualifying 
work; and
    <bullet> Have moved from one school district to another.

    Each year, Pennsylvania provides migrant education services in 139 
Pennsylvania school districts and 46 counties across the State of 
Pennsylvania. In the 2008-2009 program year, Pennsylvania's Migrant 
Education Program served a total of 5,409 eligible children and youth. 
This included migrant children and youth of Hispanic, Asian, African-
American and Caucasian descent across grade and age levels. Eighty two 
percent of these children were not fluent in English. Nineteen percent 
were pre-school children, 55 percent were in kindergarten to grade 12, 
and 26 percent were out-of-school youth.
    Pennsylvania operates the program by dividing the State into nine 
project areas for the purpose of program implementation and management. 
Each project area is overseen by a Project Manager who directs program 
implementation and day-to-day operations. Each Project Manager reports 
regularly to the Chief of the Division of Student Services and Migrant 
Education in the Pennsylvania Department of Education. The Pennsylvania 
Department of Education also provides technical assistance and 
professional development services to all project areas. Project area 
staff handle program implementation, including student support 
services, data collection and analysis, and recruitment of eligible 
children and youth.
    Identification and outreach to eligible children is an important 
part of the program. Migrant families are likely to be unaware of 
services and resources that may be available, in part because of the 
very mobility and language barriers that make the services provided by 
the program so important to them and their children. The Migrant 
Education Program in Pennsylvania works hard to ensure that migrant 
students and their families are aware and take advantage of this 
important resource. Recruiters in Pennsylvania locate children through 
referrals from growers, industry owners and employees, other migrant 
families and local school districts. Once a migrant family is 
identified, recruiters interview family members to determine if the 
children are eligible for migrant education services. Recruiters also 
help migrant families find other services for which they may be 
eligible.
    The Migrant Education Program has been an essential part of the 
Pennsylvania Department of Education's strategy to ensure that all 
students receive the necessary support to be successful in school and 
beyond by taking a holistic approach to student assistance. The program 
allows us to begin offering individualized services to migrant children 
when they are very young and continue these services through high 
school graduation. The program engages parents and fosters 
collaboration between families and school districts and community 
organizations to offer a wide-range of high quality programming both 
during school hours and non-school hours.
    Our Migrant Education Program summer activities are particularly 
important to migrant families. Many migrant families arrive in a new 
area at the beginning of the summer; our summer programs offer them 
their first point of contact to educational services and assistance in 
their new community. Migrant children are able to receive English as a 
Second Language (ESL) education during the summer. ESL and other 
instructions are essential to preventing the ``summer backslide'' 
during which English language learners and children from low-income 
households can lose up to 3 months growth in reading.
    The Pennsylvania Migrant Education Program is also a key source of 
valuable data that informs State and local policies. The program has an 
evaluation system in place that measures each student's needs and 
progress throughout the student's participation in the program. The 
system collects quantitative and qualitative summer and school-year 
program data that is vital to identifying the needs of each child and 
creating an individualized service delivery plan. In addition, migrant 
education staff has access to student assessments at the district level 
and can work with migrant students' teachers and parents to ensure the 
educational, social and emotional needs of each child are met.
    The success of the Pennsylvania Migrant Education Program is 
evident on many levels. Pre- and post-service delivery evaluations of 
the program show that with each year of participation, migrant students 
improve their academic performance in all categories on the 
Pennsylvania State academic assessment in both reading and math. We 
also have a strong track record of keeping migrant students in school. 
In Pennsylvania, 88 percent of the migrant students in their senior 
year in high school who are participants in the program graduated and 
over 90 percent of those students continued with post-secondary 
education.
    We are proud to say that Pennsylvania is a leader in delivering 
services through the Migrant Education Program to its migrant children 
and families. For many years, Pennsylvania has provided consulting and 
guidance on the delivery of migrant education services to other States 
and the Office of Migrant Education at the U.S. Department of Education 
often refers other States to Pennsylvania for assistance in developing 
and enhancing their Migrant Education Programs.
    The program's success in Pennsylvania is also evident on a personal 
level. I would like to close by sharing with you a quote from a migrant 
student from Cambodia who participated in the program for 3 years. This 
student graduated from high school last year and is now continuing his 
education at Penn State University.

          ``When I first arrived in Philadelphia, I was completely 
        clueless. I didn't even know how to find my way home from 
        school . . . Everything was different from where I came from . 
        . . For awhile, I just stayed in my house and my computer 
        became my best friend. I was scared and hiding and I didn't 
        even think I would ever get a good job after high school. I was 
        sad and frustrated.
          ``But along came the PA Migrant Education Program and my life 
        changed . . . I was amazed at how many people had the same 
        background as I did. Once in the program I got to see many 
        beautiful places and made many college and career visits. So 
        many nice people have helped me with so many of my problems. 
        Without the PA Migrant Education Program, I would not have the 
        courage to stand and talk about my challenging life.''

    Through the Migrant Education Program, States are able to reach 
many students and help them to overcome the significant barriers that 
stand between them and educational and economic success. Please help us 
continue to do this great work by continuing the support of the Migrant 
Education Program in the reauthorization of the Elementary and 
Secondary Education Act and considering the specific suggestions set 
forth in the IMEC report.
    Thank you again for the opportunity to testify today. I am happy to 
answer any questions you may have.

[Editor's Note: A report entitled Migrant Education--Recommendations by 
The Interstate Migrant Education Council (IMEC) may be found at: http:/
/www.migedimec.org/publicatons/2011ReauthRecommendations.pdf. Due to 
the high cost of printing, materials that have been previously 
published are not reprinted in the hearing record.]

    The Chairman. Thank you very much, Ms. Medina.
    Now we turn to Ms. Hundley. Welcome.

   STATEMENT OF LUCINDA HUNDLEY, ASSISTANT SUPERINTENDENT OF 
STUDENT SUPPORT SERVICES, LITTLETON PUBLIC SCHOOLS, LITTLETON, 
                               CO

    Ms. Hundley. Thank you, Chairman Harkin, Senator Enzi, and 
other members of the committee.
    You know who I am, Lucinda Hundley, from Littleton Public 
Schools. Just as a quick context, our school district has about 
16,000 kids. We are a suburban district in the Denver metro 
area. We have about 1,550 students with disabilities, preschool 
through 21, and our graduation rate is about 90 percent. Our 
graduation rate for students with disabilities is close to 80 
percent--79.2, to be specific--and our dropout rate is about 1 
percent.
    The Chairman. Wow.
    Ms. Hundley. As I said, I am directly responsible for kids 
with disabilities and the services and supports that we provide 
to them, but I want to say to you in the context of all of my 
remarks, please know that I believe parents are essential as 
partners to us and with us in the work that we do and the 
successes that we achieve. We cannot do it alone either at the 
local, State, or Federal level without parents as our partners.
    Three years ago, our board of education set a new element 
in our district's strategic plan that was very focused, and 
there were two new things that they added. One was related to 
what we call the ``90 percent goal.'' Essentially, that by the 
end of the 2011-2012 school year, 90 percent of all of our 
students, including kids with disabilities, would be on grade 
level in the areas of reading, writing, math, and science. The 
second part of that goal was to cut the achievement gap in half 
by the end of actually this school year, the 2009-2010 school 
year.
    At this point, let me give you a quick progress report. In 
terms of all students, which includes students with 
disabilities, we are finding that right now or as of, I guess, 
spring of 2009, 79.6 percent of all of our students in grades 
kindergarten through 10th grade are on grade level, using our 
District's achievement index. Also included in that is another 
piece of a statistic that shows that we are getting some things 
right, but we still have some work to do.
    In the spring of 2009, 79.6 percent of our students with 
disabilities at the elementary level made their adequate yearly 
progress targets, and 82.8 percent of our students with 
disabilities in spring of 2009 made their adequate yearly 
progress targets in math.
    We are making progress. Those are students that are in the 
elementary level. We still have work to do for students in our 
middle and high schools.
    To be effective, we believe the accountability systems need 
to include all students and that we need to hold high standards 
for all students. We believe that tracking goals and objectives 
and measurement of goals and objectives in IEPs is important, 
but that doesn't get to tracking achievement and being able to 
see what students can do and demonstrate on impartial 
instruments how they can do. So what we would say to you is 
that the system is not held accountable if the only progress we 
are measuring is on IEP goals and objectives.
    Because of current law, students with disabilities now have 
a seat at the table, and I would say to you, that is probably 
the best thing for students with disabilities under ESEA. They 
have a seat at the table for instructional planning, for 
allocation of resources, for decisions around programming, for 
decisions around assessments.
    For determining strategies that we are going to use, both 
in the classroom as well as for monitoring progress, there is 
now a much broader ownership, both at a district level, board 
of education level, and school site level for all students' 
learning, including kids with disabilities.
    Because of ESEA, we believe we have made significant 
investment in the quality of our instruction in all subject 
areas. Through a team-based philosophy in Littleton, we have 
brought school-wide reform systems to our schools in the form 
of PBS, positive behavior supports; response to intervention, 
RTI; and while having roots in special education, these 
programs are best implemented together with general education 
and embedded across an entire school system to impact the 
school system, not just one particular group of students.
    We would say that what we are seeing is that those systems 
are beginning to work pretty well with our most at-risk kids, 
our low-income, minority students, English language learners, 
students with disabilities, and any other at-risk student who 
may not have a particular label, but they still may be at risk.
    Colorado does not use an alternative assessment on modified 
achievement standards, and my written testimony includes some 
information for you about that. But what I would like to stress 
is that in making the decision to not move forward with 
developing a modified assessment, it has positively impacted 
our work because we are all being held to the same high 
standard.
    In Littleton, students with disabilities are included in 
the general education classroom to the greatest extent possible 
according to their individual needs. By doing so, I believe we 
are really getting it right. We are creating an acceptance 
within the school that is creating not only a society of 
inclusion in the school and by extension in society in general, 
but we are creating an element in our schools that are 
expecting all students to learn and where all children have a 
place in both the academic and the social structure in the 
school.
    Let me give you a quick example of a young man who in high 
school could be nominated as prom king. This young man had Down 
syndrome, and he is now 24. He is holding down an hourly job at 
the Pepsi Center, knows Carmelo Anthony. He receives an hourly 
rate, and it is a fair wage that a nondisabled person would 
also earn.
    We also do a lot of transition planning with our students 
in terms of planning ahead for a future, and that is through 
our transition planning, starting at age 15, as well as 
accessing supports like our College in Colorado program. 
Students identify available resources. They participate in 
activities related to their goals, such as career planning, job 
coaching, or potentially dual enrollment programs.
    Ultimately, what I am getting at--both by the systems that 
we are putting in our schools, our transition planning, putting 
college as a potential in a child's future--is we are setting 
the bar high enough that students with disabilities can 
actually begin to envision that they might have a future beyond 
high school, that they might graduate, that they might have 
something that holds some promise for them beyond high school--
higher education, potentially a career, some type of work 
experience.
    We also do something unique in Littleton. A year after our 
students graduate or age out at 21, we call those students and 
their parents to say how did we do? What are you doing? What 
could we have done better? What suggestions do you have for us?
    As of the spring of 2009, for those students that were 
graduates or who aged out in 2008, 52 percent of those students 
are now in higher ed, and 44 percent of those students are in 
the workforce.
    I would like to leave you with a couple of key 
recommendations, and I will be brief. No. 1, please maintain 
full accountability for students with disabilities, but please 
also consider, like my fellow panel members here have also 
said, please consider part of the annual assessment that is a 
measurement of student growth over time compared to themselves. 
Cohort groups are an important way of measuring student 
progress, not arbitrary targets that are currently in the 
adequate yearly progress measurement.
    No. 2, please provide flexibility in the use of ESEA funds 
to be able to train and build capacity for both general and 
special education staff working with children with 
disabilities. It is important to build those technical skills. 
It is important to all of us in the field to be able to build 
capacity with the limited resources that we have.
    No. 3, please support quality teacher training programs and 
models that provide incentives and supports for people to go 
into this very severely short-staffed field of special 
education. We know that nationally, there is a shortage of 
special education teachers, and we need support in creating 
incentives for people to go into those fields.
    No. 4, please provide incentives for State assessments to 
be designed and implemented so that all students can accurately 
demonstrate over time their academic knowledge and skills.
    And last, please expand opportunities to improve early 
literacy instruction and critical interventions through ESEA.
    Thank you again for inviting me to participate in this 
panel, and I will await your questions.
    [The prepared statement of Ms. Hundley follows:]
                 Prepared Statement of Lucinda Hundley
    Chairman Harkin, Senator Enzi, and other members of the committee, 
thank you for inviting me to speak today. I am the Assistant 
Superintendent of Student Support Services for Littleton Public Schools 
in Littleton, CO. Our district includes 24 schools Pre-K-12 and the 
district motto ``big enough to serve you, small enough to know you'' is 
embodied in the comprehensive programming offered in a caring and 
involved small-town atmosphere. We have over 16,000 students enrolled 
this year including 1,550 that are served under the Individuals with 
Disabilities Education Act. Our high school graduation rate is 90 
percent, 79.2 percent for students with disabilities, and our dropout 
rate is 1 percent.
    In my role as Assistant Superintendent, I am directly responsible 
for all services provided from pre-school to age 21 to students 
receiving special education services under IDEA. I work with a dynamic 
team of district leaders responsible for students with a broad range of 
needs, including title I schools. Together, we strive to set the 
highest of expectations for all of our students.
    Today, I'd like to highlight key components of my district's 
commitment and success with students receiving special education 
services as well as share several recommendations for you to consider 
as you reauthorize the Elementary and Secondary Education Act.
                 littleton's commitment to all students
    Three years ago, our Board of Education added a new element to the 
district's strategic plan to support and reinforce that student 
achievement should be at the heart of everything we do in our schools. 
The goals of that plan are:

    <bullet> ensure that 90 percent of students--including students 
with disabilities--will be on or above grade level in the areas of 
reading and writing, mathematics, and science by the end of the 2011-
2012 school year; and,
    <bullet> cut the student achievement gap by half by the end of the 
2009-2010 school year.

    We have made tremendous progress in accomplishing these goals, in 
fact, as of spring, 2009, 79.6 percent of Littleton Public School 
students are on or above grade level, in the areas of language arts and 
math, according to the District's student achievement index. This 
reflects all students, grades K-10. While we have made gains in 
pursuing these goals, it will come as no surprise, that we continue to 
reassess not just what we are doing to improve student achievement, but 
how we are doing it, how we are improving general and special 
education, as well as how we are monitoring progress over time.
    For students with disabilities, the gains are significant. In fact, 
our 2009 data show a district-wide 98 percent participation rate in our 
statewide assessments and steady gains in achievement. Examples of this 
include 76.9 percent of elementary students with disabilities meeting 
the adequate yearly progress target for reading and 82.8 percent of 
elementary students with disabilities meeting the adequate yearly 
progress target for math. There is no question that the requirement in 
current ESEA law--to fully include students with disabilities at the 
subgroup level in the accountability system--is a significant reason 
for these gains.
    To be effective, State accountability systems must include all 
students, and be held accountable for the achievement of all students. 
Using progress monitoring data related to IEP goals is not a valid 
assessment of the success of the system to promote high levels of 
achievement for students with disabilities on State standards. The IEP 
is an individualized guarantee for special education and related 
services based on assessed student needs. IEP goals are related to a 
student's specific individual needs, including for example, services 
and supports--but these alone are not always a sufficient gauge of a 
student's educational achievement. Special education must also provide 
specially designed instruction and services for students with 
disabilities that facilitate high expectations and high achievement. 
The system is not held accountable if progress on meeting IEP goals is 
used as the sole accountability measure.
    Under No Child Left Behind, students with disabilities now have a 
seat at the table, for instructional planning, staff development, and 
determining strategies for ongoing assessments to monitor progress. 
There is now a much broader ownership for the learning of all students, 
including those with disabilities.
    Before the last reauthorization, the needs of students with 
disabilities were not fully considered in many of the decisions made 
regarding allocation of resources for teacher training, for programming 
including literacy and other interventions and for participation in 
assessments with their peers. Because of ESEA, Littleton Public Schools 
has made a significant investment in improving the quality of our 
instruction, in all subject areas. By bringing best practices to our 
schools through a team-based philosophy, we have been able to create 
and sustain school-wide reform systems through research-based programs 
such as Positive Behavior Support (PBS) and Response to Intervention 
(RtI). Both of these systemic strategies, while having roots in special 
education, are best implemented when the entire school building is 
engaged and both general and special education are working together to 
ensure that our most at-risk students, including low-income students, 
minority students, English Language Learners and students with 
disabilities, are provided the supports and interventions they need 
regardless of eligibility for one particular program or another.
    When the U.S. Department of Education provided flexibility to 
States in creating an alternate assessment on modified achievement 
standards for students with disabilities--often referred to as the 2 
percent Rule--Colorado's State legislature charged an expert study 
committee with the task of examining whether the State should move 
forward to develop a 2 percent test. In December 2005, the study 
committee released the report Assessing ``Students in the Gap'' in 
Colorado. That report included key recommendations such as:

    <bullet> Expand the eligibility and difficulty of Colorado's 
alternate assessment on alternate standards for students with the most 
significant cognitive disabilities;
    <bullet> Increase the use of standardized accommodations;
    <bullet> Promote intensive, targeted, research-based instruction;
    <bullet> Investigate accountability measures that could account for 
longitudinal growth; and
    <bullet> Investigate the effect of giving Colorado's general 
assessment to students in smaller sections over a longer period of 
days.

(Source: Report from the HB-05-1246 Study Committee, 2005)

    Colorado's decision to not move forward in developing the modified 
assessment has positively impacted my district's commitment to 
providing the intensive, targeted, research-based instruction that 
students need and we strive to make the best decisions regarding 
assessments for students with disabilities.
    Current law, although not perfect, has helped us work together to 
support a philosophy and approach that sets the highest of expectations 
for all students and doesn't place arbitrary limits on what any student 
can or should be expected to achieve. This helps us carry out on-going 
and focused professional development and staff training throughout the 
district. Our training is not a ``top down'' model, but instead relies 
on school-based teams to pilot evidence-based programs, see the student 
gains and then share and expand the growth of best practices and 
programs throughout the district.
    In Littleton, students with disabilities are included in the 
general classroom to the greatest extent possible according to their 
individual needs. Because of a sustained effort to more fully include 
students with disabilities with their peers, in my estimation we are 
getting it right, including in Littleton, CO. We are benefiting greatly 
because we are fostering and supporting acceptance that creates a 
school society in which all pre-school, elementary, middle and high 
school students are expected to learn and know grade level content to 
the greatest extent possible, and, where all children have a place in 
both the academic and social structure of school and where, for 
example, a young man with Down Syndrome can be nominated prom king 
while in high school and hold down an hourly job at age 24, in a 
typical work place setting.
    Another example of how students with disabilities are benefiting is 
with both the focus on transition to post-secondary opportunities and 
our State's College in Colorado program. It helps students engage in 
discussions about their future, identify resources available to them, 
participate in activities related to their goals, such as career 
planning, job-related skill development, on the job coaching, dual 
enrollment programs at the local community colleges or classes that 
support their career interests. Ultimately, it sets the bar high enough 
that students have a vision of themselves achieving goals after high 
school, which can include going to college. The College in Colorado 
program has expanded to include identifying higher education resources 
for students with disabilities. Imagine being a student with 
disabilities who, in the past, would have assumed that college wasn't 
in their future. Now, many students with disabilities in Colorado have 
set very realistic goals for themselves, goals that include college.
    In Littleton, for students that graduate or exit at age 21 after 
receiving special education services, we contact each of them, and 
their parents, 1 year after graduation to ask them what they are 
currently doing in their life, how prepared they were, how they are 
doing, and what suggestions that might have for us to improve our 
supports to students with disabilities. After 5 years of collecting 
this post-school outcome data, we are confident to report that the 
majority of the students that have graduated or exited at age 21 are 
doing quite well. For the 2009 graduates reporting, 52 percent are 
involved in higher education, and 44 percent are employed in the 
workforce. This continues to be an area of priority for us, linking K-
12 student achievement outcomes with post-secondary success.
                          key recommendations
    Inherent to our success as a district is also the ongoing challenge 
to make an imperfect law work so that we can fully support and serve 
all of the students for which we are responsible. As such, I'd like to 
offer several recommendations for you to consider as you reauthorize 
the ESEA.

    1. Maintain full accountability for students with disabilities. 
Please consider however, as part of the annual assessment, the addition 
of a growth model that measures student growth at a cohort level. 
Current accountability with artificial targets for student performance 
does not allow for recognition of significant growth over time. 
Comparisons should be made from year to year against the same cohort or 
group of students, to fully understand the actual gains being made by 
that group (e.g. compare the same group of third graders to themselves 
when in the 4th grade). Accountability in this model is much more 
authentic as a measurement of real progress and therefore more accepted 
when it is relevant at the student level and reflective of the work 
being done. If our goal is to teach students and expect them to learn 
grade level content, we need to measure and compare those same 
students' growth each year. On a broad level, while States set their 
own targets, States (and their school districts) should get credit for 
progress made toward their own proficiency. A district level example of 
this is that in 2009, Littleton achieved 129 out of 135 AYP targets for 
our subgroups, but got no credit for progress that these students made, 
only the note that the district did not achieve AYP.
    2. Provide flexibility in use of funds through ESEA to train and 
build capacity for more teachers. There is a critical shortage of 
special education personnel in Colorado and throughout the Nation. By 
allowing Federal funds to flow for training of both general and special 
education staff, districts like mine could ensure that general 
educators are better prepared to teach students with diverse learning 
needs and that special educators better understand how to teach to 
grade level standards while providing specially designed instruction as 
required by IDEA. This would also allow districts to better utilize 
limited resources to assure that the staff with the most appropriate 
skills and training are those working with students with a range of 
learning needs. We want to focus our training on improving student 
academic achievement and how to teach students to successfully master 
the challenging curricula to the greatest extent of their abilities.
    3. Support teacher training programs that provide ongoing 
incentives and support to draw qualified staff into the field where 
there are critical shortages. We all recognize that there is a serious 
shortage nationally of special education teachers. Colorado's Teacher 
in Residence training program is an example where higher education, in 
partnership with school districts, provides ongoing training, oversight 
and support in coordination with the mentoring support that the school 
district can provide. This type of teacher preparation program as an 
example, paired with flexibility for use of funds to build capacity and 
increased skills with current teaching staff as described previously, 
will enhance the efforts we are currently making in the field to 
provide trained, quality staff proficient in evidence-based instruction 
and progress monitoring.
    4. Provide incentives for State assessments to be designed and 
implemented so that all students can accurately demonstrate, over time, 
their academic knowledge and skills. Our assessments must utilize the 
principles of Universal Design for Learning to ensure that all 
students--including those with disabilities--can meaningfully 
demonstrate their knowledge and skills, thereby providing a more 
accurate understanding of student academic performance for evaluation 
by educators, families and policymakers. This ``next generation'' of 
assessments must consider the needs of diverse learners from creation, 
rather than attempting to retrofit assessments during their 
implementation. An assessment can only be considered an accurate 
picture of a student's knowledge and skills if it is designed to allow 
a student to most effectively demonstrate what they know.
    5. Expand opportunities to improve early literacy instruction and 
critical interventions throughout ESEA. Including a strong literacy 
component as part of ESEA and supporting professional development for 
teachers (e.g., the LEARN Act as recently introduced in the Senate and 
House) will help ensure training and funding for statewide literacy 
planning and instruction. School improvement and reform provisions must 
require the adoption and valid use of proven school-wide educational 
strategies, and embedding them in the general education structure. By 
including a ``multi-tier system of supports (MTSS)--which allows for 
systems such as Response to Intervention, Positive Behavior Support and 
other research-based instruction and intervention systems--we can 
prevent academic failure, increase academic achievement and reduce the 
number of students mistakenly identified as needing special education.
    Thank you again for this opportunity to speak to you today. I will 
be happy to take your questions.

    The Chairman. Ms. Hundley, thank you very much for being 
here and for your statement.
    Now we will turn to Ms. Ross, Denise Ross.

   STATEMENT OF DENISE ROSS, SUPERVISOR, HOMELESS EDUCATION 
    OFFICE, PRINCE GEORGE'S COUNTY PUBLIC SCHOOLS, MARYLAND

    Ms. Ross. Thank you, Chairman Harkin, Ranking Member Enzi, 
and members of the committee, for providing me with the 
opportunity to speak to you on behalf of homeless children 
across the country.
    Our school system, like most jurisdictions, has experienced 
growth in our homeless student enrollment over the past few 
years. Currently, there are over 2,500 homeless children and 
youth enrolled in our school system. This is approximately a 14 
percent increase over the past 3 years.
    Homeless children and youth have unique needs. They 
encounter educational barriers when these needs are not 
understood, or when Federal law--the McKinney-Vento Homeless 
Assistance Act--is not implemented fully.
    Homeless children and youth are embarrassed about where 
they live. They move from place to place, worried about where 
they will live next and what school they will attend. They are 
hungry and wondering whether or not they will have food to eat. 
They often lack sleep because they are in a crowded place, 
sometimes with people that they don't know. They lack the 
basics, such as clothing and school supplies, personal hygiene 
items, things that we sometimes take for granted.
    The McKinney-Vento Homeless Assistance Act is an anchor for 
homeless students in many ways. It allows youngsters to have 
immediate school access as well as school stability during 
their time of transition. I actually see the power of these 
policies on a daily basis.
    Most importantly, over 70 percent of our homeless children 
in Prince George's County Public Schools attend the same school 
that they were attending prior to losing their housing, also 
known as the school of origin. Thanks to our school district's 
commitment to school stability, this has occurred.
    Despite progress over the past years, many barriers remain. 
Some of the primary challenges include identifying homeless 
students, providing transportation, and meeting the needs of 
the special populations. There are many more challenges, but 
with respect to time, we are going to focus in on just those 
three.
    First, the educational needs of homeless students cannot be 
met if these students are not identified. Yet homeless students 
are often invisible. Even with the more than 2,500 homeless 
students that our county has identified, we know that there are 
more out there, unseen and, therefore, not served.
    Reauthorization should increase the authorized funding 
level so that more school districts have the resources to hire 
the staff to find and then assist homeless students. Currently, 
my school district is among 9 percent of school districts 
nationwide that receive funding.
    Another challenge and one of our bigger challenges is 
transportation. The primary purpose of the McKinney-Vento 
Homeless Assistance Act is to limit disruption in the child's 
education. Transportation is essential to achieve this purpose. 
Yet the cost of providing transportation is very high.
    Our school district steps up to the plate in providing 
transportation, but we do that at a very high cost. The cost of 
transportation has caused school districts to fail to identify 
homeless students or to force school moves that are not in that 
child's best interest.
    We also are challenged by other school districts that are 
not providing prompt or timely transportation, and this creates 
a barrier to the immediate or continued enrollment and 
attendance of homeless students. In addition, some school 
districts misinterpret the school of origin transportation 
requirements. Therefore, they discontinue transportation to the 
school of origin if the family obtains permanent housing during 
the school year.
    This practice pulls the rug out from underneath homeless 
children and youth just as they are finally achieving some 
stability in their lives. Once again, it uproots their 
education. Therefore, I ask that reauthorization support the 
transportation provisions of the McKinney-Vento Act by 
addressing all of these issues.
    The last challenge that I would like to address is meeting 
the needs of special populations. Young children experiencing 
homelessness are often shut out of early childhood programs as 
a result of their mobility, never reaching the top of the 
waiting list.
    The McKinney-Vento Act should be amended to increase 
homeless children's access to and stability in early childhood 
programs. In addition, unaccompanied youth face the trauma of 
homelessness without the support of a parent or guardian. They 
are often disengaged from school and behind in credits. I ask 
that reauthorization address their unique needs and ensure that 
they have a chance to make up what they missed due to 
homelessness.
    Finally, children and youth in foster care also experience 
educational disruption. Reauthorization should create a 
separate education program for children and youth in foster 
care that provides immediate access and school stability. This 
program should maximize the collaborative role and the 
resources of child welfare agencies.
    In closing, too many homeless children and youth are not 
identified, enrolled, or attending school. Too many continue to 
change schools over and over again, each time losing 
instruction, losing friends, and eventually losing their 
connection to school entirely by dropping out. Homeless 
students and students in foster care need additional supports 
if they are to be able to participate successfully in any 
educational program.
    I ask the committee to address these issues in the upcoming 
reauthorization.
    Thank you again for the opportunity to share my experience 
and views.
    [The prepared statement of Ms. Ross follows:]
                   Prepared Statement of Denise Ross
                                summary
    Homeless children and youth have unique needs; they encounter 
educational barriers when those needs are not met. These needs include 
lack of basic supplies such as clothing and hygiene products; fatigue, 
hunger, emotional stress, trauma; high residential mobility; lack of 
records.
    Despite much progress over the past years, many barriers to the 
education of homeless children and youth remain. Some of the primary 
challenges include the following: (1) difficulty identifying homeless 
students; (2) lack of dedicated staff time and resources; (3) 
determining the best educational placement; (4) the logistical and 
financial challenges of transportation; (5) lack of clarity in the 
title I part A setaside for homeless students; and (6) meeting the 
needs of special populations, such as preschool children, unaccompanied 
homeless youth, and children and youth in foster care.
    Recommendations for Reauthorization of ESEA:

    <bullet> Improve identification of homeless students by ensuring 
that school districts have the resources to hire the staff to find and 
assist homeless students. Reauthorization also should require that 
homeless liaisons participate in professional development to increase 
awareness, which also will improve identification.
    <bullet> Require that all homeless liaisons have sufficient 
training, resources, and time to perform their mandated 
responsibilities.
    <bullet> Require that best interest determinations for homeless 
students be individualized and child-centered, and that they take into 
account a number of important criteria, such as the age of child, 
safety of student, and time remaining in the school year. School 
districts should presume that staying in the school of origin is in the 
child's best interest, unless an individualized determination supports 
a school move, or unless the parent, guardian, or youth wish to change 
schools.
    <bullet> Support the transportation provisions of the McKinney-
Vento Act by addressing these funding issues and clarifying that 
transportation to the school of origin must be provided until the end 
of the school year if a child or youth obtains housing, if it continues 
to be in his or her best interest to continue to attend there.
    <bullet> Provide greater clarity in determining the amount of the 
title I, part A setaside for homeless students, as well as more 
flexible uses of these funds.
    <bullet> The McKinney-Vento Act should be amended to increase 
homeless children's access to and stability in the early childhood 
programs.
    <bullet> Reauthorization should address the unique needs of 
unaccompanied homeless youth and ensure that they have a chance to make 
up the credits they missed due to homelessness.
    <bullet> Reauthorization should create a separate, dedicated 
education program for children and youth in foster care that allows 
them to stay in the school of origin when it is in their best interest, 
or immediately enroll in a new school. This program should maximize the 
collaborative role and the resources of child welfare agencies, so that 
both agencies have clear, distinct, and appropriate responsibilities.
                                 ______
                                 
    Thank you, Chairman Harkin, Ranking Member Enzi, and members of the 
committee, for providing me with an opportunity to speak to you on 
behalf of homeless children and youth across the country.
    I currently serve as the Supervisor for the Homeless Education 
Program for the Prince George's County Public School System in 
Maryland. Our school system, like most jurisdictions, has experienced 
growth in our homeless student enrollment over the past few years. 
Currently, there are over 2,500 homeless children and youth enrolled in 
our schools. This is approximately a 14 percent increase over the past 
3 years.
    Homeless children and youth have unique needs. They encounter 
educational barriers when these needs are not understood, or when 
Federal law--the McKinney-Vento Act--is not implemented fully. Homeless 
children and youth are embarrassed about where they live. They don't 
understand why they are homeless, or why their circumstances do not 
improve. They move from place to place, worried about where they will 
live next and what school they will have to attend. Often times, they 
are hungry and wondering whether they will have food to eat. They often 
lack sleep because they are in a crowded place with other people they 
don't know. They lack basics such as clothing and school supplies.
    Unaccompanied homeless youth confront these difficulties without a 
parent, guardian, or any caring adult, most often because they are 
fleeing abuse or neglect at home. Homeless children and youth are often 
sad and scared, but they can feel safe and secure at school. School is 
also where they can obtain the education to help them escape poverty 
and homelessness as adults.
    The McKinney-Vento Homeless Assistance Act is an anchor for 
homeless students in many ways. It allows these vulnerable youngsters 
to have immediate school access and school stability during their time 
of transition. In my work as school district homeless liaison, I see 
the power of these policies on a daily basis. I conduct trainings on 
the McKinney-Vento Act each year to make sure our school personnel know 
their responsibilities. Our program provides homeless students with 
vouchers or gift cards for clothing, uniforms, shoes, school supplies, 
personal hygiene items, eye exams and glasses, if prescribed. We also 
provide after-school academic support services with McKinney-Vento 
grant funds in a local elementary school and at a homeless shelter for 
women and children. We know that if you equip the students with these 
necessities, it will enhance their desire to attend school, and improve 
their academic performance. We provide many other services, working 
closely with community agencies to make referrals and coordinate 
activities.
    Most importantly, the majority of our homeless students attend the 
same school that they were attending when they lost their housing, 
thanks to our school district's commitment to fulfilling our legal 
obligation to provide the transportation required for a stable school 
experience.
    Despite progress over the past years, many barriers to the 
education of homeless children and youth remain. Some of the primary 
challenges include the following: (1) difficulty identifying homeless 
students; (2) lack of dedicated staff time and resources; (3) 
determining the best educational placement; (4) the logistical and 
financial challenges of transportation; (5) lack of clarity in the 
title I part A setaside for homeless students; and (6) meeting the 
needs of special populations, such as preschool children, unaccompanied 
homeless youth, and children and youth in foster care.
    1. Difficulty Identifying Homeless Students. The educational needs 
of homeless students cannot be met if these students are not 
identified. Yet homeless students are often invisible. A homeless 
parent, when asked by a reporter what she wanted to say to the public, 
responded, ``You can't judge a book by its cover.'' In other words, you 
can't always tell just by looking at someone whether or not that person 
is homeless. Even with the more than 2,500 homeless students we have 
identified in our county, we know that there are more out there, unseen 
and not served. Reauthorization should address the need for increased 
outreach and identification of homeless children and youth by 
increasing the authorized funding level, so that more school districts 
have the resources to hire the staff to find and assist homeless 
students. Reauthorization also should require that homeless liaisons 
and school staff participate in professional development. This 
professional development will result in a heightened awareness and 
thereby improve identification efforts.
    2. Dedicated Staff Time and Resources. School district homeless 
liaisons are essential for effective implementation of the McKinney-
Vento Act. McKinney-Vento liaisons and school staff are often the only 
source of advocacy and support for homeless students. However, homeless 
liaisons face a number of challenges. They are often unable to devote 
sufficient time to carry out their duties, due to the many hats they 
wear. In fact, in the majority of school districts, the liaison is 
merely a title. This problem is related in part to the low funding 
level of the McKinney-Vento program; only 9 percent of school districts 
receive McKinney-Vento Act funds. Fortunately, thanks to the support of 
the Prince George's County Public School District, our homeless program 
has four full-time positions. We need each and every person on our 
staff to ensure that our students are served. Reauthorization should 
require that homeless liaisons have sufficient capacity to perform 
their mandated responsibilities.
    3. Determining the Best Educational Placement. School districts are 
required to keep homeless children and youth in their original school, 
to the extent feasible, unless staying in this school is against the 
wishes of the parent or guardian. In my experience, school stability is 
usually in a child's best interest; in fact, over 70 percent of our 
homeless students stay in the same school. Unfortunately, I have 
witnessed different school districts interpret this policy in different 
ways. Sometimes, they base what is feasible on cost and convenience, 
rather than on what is truly in the best interest of the child. 
Reauthorization should require that ``best interest'' determinations be 
individualized and child-centered, and that they take into account a 
number of important criteria, such as the age of child, safety of 
student, and time remaining in the school year. School districts should 
presume that staying in the school of origin is in the child's best 
interest, unless an individualized determination supports a school 
move, or unless the parent, guardian, or youth wish to change schools. 
This policy will allow flexibility to meet individual needs, but 
strengthen and promote school stability.
    4. The Logistical and Financial Challenge of Transportation. The 
primary purpose of the McKinney-Vento Act is to limit disruption in 
children's education when they suffer the loss of housing. 
Transportation is essential to achieve this purpose. Yet the cost of 
providing transportation is very high. The Prince George's County 
Public School District steps up to the plate in providing 
transportation, but we do so at a very high cost. The cost of 
transportation has caused other school districts to fail to identify 
homeless students, or to force school moves that are not in children's 
best interest. Reauthorization should support the transportation 
provisions of the McKinney-Vento Act by addressing these funding 
issues. In addition, while the Prince George's County Public School 
District tries to follow the letter and the spirit of the law, we are 
challenged by other school districts that are not providing prompt or 
timely transportation services. This creates a barrier to immediate or 
continued enrollment and attendance. In addition, some school districts 
misinterpret the school of origin transportation requirements. They 
discontinue transportation to the school of origin if the student 
obtains a regular, fixed, and adequate nighttime residence during the 
school year. This practice pulls the rug out from underneath homeless 
children and youth just as they are finally achieving some stability in 
their lives; once again, it uproots their education. Reauthorization of 
the McKinney-Vento Act should clarify that transportation to the school 
of origin must be provided until the end of the school year if a child 
or youth obtains housing, if it continues to be in his or her best 
interest to continue to attend there.
    5. Lack of Clarity in Title I Part A Setasides. We are fortunate to 
be among the 9 percent of all school districts nationwide that receive 
a McKinney-Vento sub grant. This year, our homeless education program 
is supported by a $60,000 McKinney-Vento grant, a $113,000 ARRA 
homeless education grant, and $85,000 from the title I, part A homeless 
education setaside. The contribution of title I part A is essential for 
our program to continue services. Yet our district, like many others, 
would benefit from greater clarity in determining the amount of the 
setaside, as well as more flexible uses of these funds. Reauthorization 
should address both of these issues; especially since the title I part 
A setaside is the primary funding source available to school districts 
to support their homeless children and youth.
    6. Meeting the Needs of Special Populations. Some children and 
youth have special circumstances, and require specific policies. Young 
children experiencing homelessness are often shut out of early 
childhood programs as a result of their mobility, never reaching the 
top of the waiting list. The McKinney-Vento Act should be amended to 
increase homeless children's access to and stability in the early 
childhood programs. In addition, youth who are homeless and on their 
own face the trauma of homelessness without the support of a parent or 
guardian. They are often disengaged from school and behind in credits. 
Reauthorization should address their unique needs and ensure that they 
have a chance to make up what they missed due to homelessness. Finally, 
children and youth in foster care also experience high rates of 
mobility and educational hurdles. Reauthorization should create a 
separate, dedicated education program for children and youth in foster 
care that allows them to stay in the school of origin when it is in 
their best interest, or immediately enroll in a new school. This 
program should maximize the collaborative role and the resources of 
child welfare agencies, so that both agencies have clear, distinct, and 
appropriate responsibilities.
    In closing, I would like to share a story about a single homeless 
mother with two children. One child was in elementary school, and the 
other was in middle school. The mother lost her government job, and, as 
a result, lost her housing. She and her two children stayed with family 
or friends for a period of time in stressful, unstable arrangements. 
The family moved at least three times, but thanks to the McKinney-Vento 
Act, the children remained at the same school that they had attended 
prior to becoming homeless. Each time the mother's living arrangements 
changed, homeless liaisons assisted her with completing required 
documents to allow for continuity with transportation. Her children 
were able to receive free meals (breakfast and lunch) at school. The 
elementary student was on the honor roll. However, the middle school 
student's grades gradually fell below average. His grades were not a 
reflection of his ability. They were a direct result of his inability 
to concentrate on studying. He was consumed with figuring out where 
they would be living when he got out of school. Being a teenager, he 
was also angry and embarrassed by their living arrangements. The mother 
and her children eventually obtained a spot at a local shelter in a 
neighboring jurisdiction. She requested that the students finish out 
the school year in Prince George's County Public Schools. We determined 
that this school placement was in her children's best educational 
interest, so transportation was arranged, and the students finished out 
the school year in Prince George's County. Today, the mother has 
obtained housing. She also completed a Culinary Arts program. Both 
children are attending school in the neighboring jurisdiction and doing 
well. This mother called our Homeless Program a ``blessing'' to her in 
her time of hardship.
    This story may have ended quite differently if the Prince George's 
County School District did not have the willingness, ability, and 
resources to implement the law. Too often, stories like this, and many 
other stories of even greater hardship, do end differently. Too many 
homeless children and youth are not identified, enrolled, or attending 
school. Too many homeless children and children in foster care continue 
to change schools over and over again, each time losing instruction, 
losing friends, and eventually losing their connection to school 
entirely by dropping out. Education is one of our strongest weapons in 
the fight against adult homelessness. But homeless students, and 
students in foster care, need additional supports if they are to be 
able to participate successfully in any educational program. The 
McKinney-Vento Act has a strong history, but too many barriers remain. 
I ask the committee to strengthen and expand the McKinney-Vento Act 
program for homeless children and youth, and to create similar 
opportunities for children and youth in foster care through a separate 
program that is dedicated to their unique needs.
    Thank you again for the opportunity to share my experience and 
views.

    The Chairman. Ms. Ross, thank you very much for a profound 
statement, and I think that leads elegantly into Ms. VanDyke.
    Welcome.

         STATEMENT OF KAYLA VANDYKE, STUDENT, EAGAN, MN

    Ms. VanDyke. Chairman Harkin and Senator Enzi and members 
of the HELP Committee and other staff, thank you so much for 
inviting me to talk today and share my story, as well as talk 
about some of the issues I know affect many other homeless and 
foster children.
    I am not an expert on policy, but I do know how I have been 
affected by it, and I hope my experiences can help you make the 
choices that will improve the system.
    My name is Kayla VanDyke. I am 18 years old, and I have 
been in 7 different foster care placements, as well as being in 
10 different schools since I was 4 years old.
    I have been homeless. I have experienced living in a 
shelter, and I have been separated from my siblings along the 
way. But I am pleased to tell you that despite the statistics 
that suggest that roughly half of foster children and homeless 
youth do not finish high school, I will be graduating in 4 
weeks with a 3.7 GPA.
    [Applause.]
    Thank you.
    I am on track to attend Hamline University in the fall and, 
right after that, complete an internship with FosterClub, which 
is the national network for youth in foster care.
    I entered into foster care for the first time when I was 4 
years old. After 3\1/2\ years of being in placements with my 
siblings, I was returned to my mother. Soon after that, we 
experienced homelessness. I completely stopped attending 
school. So I have no fourth grade education.
    We stayed with a family friend for a few months before we 
were accepted into a homeless shelter in Minneapolis. It was 
September by then, and I can remember thinking that I should be 
going to school soon.
    When I showed up at Lake Harriet Elementary School on the 
first day of fifth grade, there was no record of my education 
in St. Paul. But the issue wasn't pressed, and I was allowed to 
enter into classes immediately.
    I was used to being the most motivated and smartest person 
in the class. However, because of my educational hiatus, I 
could barely keep up. I was also ashamed of where I was living, 
and I tried hard to hide the fact that I was living in a 
shelter from the other students. I became very lonely and 
withdrawn.
    I later started receiving help from a counselor who donated 
her time at the shelter where I lived. She helped me overcome a 
lot of the emotional pain I had been experiencing as a result 
of my homelessness. In turn, I began to feel more comfortable 
at school and became engaged in activities.
    Not only did she guide me, but she also helped me gain 
access to resources like scholarships for summer. I ended up 
going to the YMCA camp and for just once feeling very normal.
    Looking back, I realize what a huge difference these things 
made in my life. Every homeless and foster youth should have 
the kind of support I had. While the McKinney-Vento Act 
provides homeless youth with advocates, these people often 
don't have the time or training to fulfill their 
responsibilities. I, myself, never came across one of these 
people.
    It shouldn't be left up to chance whether or not someone is 
available to advocate for a student in need. Changes should be 
made to ensure that these people are accessible to foster and 
homeless youth so that all students have the tools they need to 
succeed.
    At the age of 13, I was placed in foster care for the 
second time. After 6 months in a respite home, which is a 
temporary placement, I changed homes and schools. I really 
wanted to stay at my old school, where I was doing well and had 
finally found a best friend, but it wasn't an option I felt I 
had.
    Once again, I became isolated and began falling behind in 
my classes. All the schools I attended taught portions of the 
courses at different times. So when I moved schools, I might 
completely miss one half of the year's lessons and re-learn 
what I had already learned at the other school. School change 
is inevitable for a foster or homeless youth, they should be 
able to receive the help they need to bridge the gap that might 
occur because they changed schools.
    After many similar transitions, I finally found myself in a 
good home. I had a support group that gave me choice and access 
to things I was interested in. By my sophomore year, my grades 
finally started reflecting what I was capable of 
intellectually.
    However, it couldn't erase the fact that I had skipped 
major steps in my linear education, which is reflected in my 
math and science performance. Like many other homeless and 
foster children who score significantly lower than their peers 
on standardized tests, I failed the Minnesota Comprehensive 
Assessment of math and only scored a 21 on my ACT.
    While that may not seem so bad, it is for someone who knows 
they are capable of more. The effect of this has also 
snowballed into me having difficulties getting into college. 
Not to worry--fortunately, my social studies and English skills 
have made up for some of my educational gaps, and I have been 
accepted into college.
    I know that if it were not for the support, I could have 
ended up like my sister or many other foster youth. While my 
sister is currently surviving, she never got the chance to 
pursue higher education or receive support in achieving her 
goals. In fact, because of the school and placement moves she 
experienced, she barely finished high school.
    I know there are a lot of stories like my sister's. That is 
why my ultimate goal would be that more young people have good 
supportive experiences like I did in my sophomore year.
    On behalf of the half million children in foster care and 
the 30,000 who will age out of the system this year, I would 
like to make the following suggestions.
    Foster and homeless children should have the right to 
transportation to their original schools. I know personally 
that if I had had the option to stay at my old school, I 
wouldn't have had so many gaps in my education.
    I also believe that schools should be required to enroll 
foster and homeless youth immediately and transfer credits and 
records quickly. I know that if my records had been transferred 
while I was in elementary school, I would have had the 
opportunity to make up the schooling I had missed. However, I 
am very fortunate that they did allow me to enter in school 
immediately.
    Finally, as I have said before, counselors or liaisons 
should be provided for foster and homeless youth to help them 
succeed in education. Because being in foster care is a state 
of homelessness. It is very similar, and we need very similar 
support in that.
    I thank you all again for this opportunity.
    [The prepared statement of Ms. VanDyke follows:]
                  Prepared Statement of Kayla VanDyke
                                summary
    My name is Kayla VanDyke. I'm 18 years old and have lived in seven 
different foster care placements and attended 10 different schools 
since I was four. I've experienced homelessness, have lived in a 
shelter, and have been separated from siblings along the way. At one 
point, I missed my entire 4th grade year due to my family's 
homelessness. But I'm pleased to tell you, despite the statistics that 
say that roughly half of foster care youth and homeless youth don't 
finish high school on time, I will be receiving my high school diploma 
in 4 weeks. I'm on track to attend Hamline University in the fall, 
right after I complete an internship with FosterClub, the national 
network for young people in foster care.
    I've been lucky enough to have an underlying awareness of the 
importance of education, which has always been my main motivator. I 
noticed from a young age that there was one main difference between my 
family and the people I considered successful and happy: they had an 
education, my family didn't.
    There were things that worked in my life and education and there 
were things that made it very hard for me to adapt. During the 
instability of my childhood, my educational experience was highly 
impacted, leading me to make the following recommendations:

    <bullet> Like homeless youth, foster youth should be able to stay 
in their old school after they move to a new school district when it's 
in their best interest. Transportation must be provided in order for 
this to be possible. As a foster youth who was never quite sure about 
where I would be moved next, I didn't want to inconvenience my new 
family by asking for rides to my old school, even though it was minutes 
away. It never really occurred to me that it would even be an option.
    <bullet> Assistance should be provided to homeless and foster youth 
to cover gaps in their education that result from unavoidable school 
moves. When I changed schools, sometimes I completely missed one-half 
of the year's lessons and had to re-learn what I had already covered at 
the other school. The fact that I have skipped major steps in my linear 
education continues to impact me to this day. When a young person must 
move, special efforts should be made to ensure that their records are 
transferred, that they don't lose school credits, and that they receive 
the help they need to bridge any gaps that might occur due to the move.

    In addition, I have come to realize that some key things were 
available to me that some of my brothers and sisters in foster care 
must also have to ensure their educational success:

    <bullet> Dedicated liaisons or advocates should be provided for all 
foster and homeless youth. These critical adults must have the 
training, time and capacity to serve vulnerable children who are caught 
up in the kind of circumstances I was in.
    At various points in my childhood, supportive adults in the 
education and child welfare systems dedicated time and energy to help 
me succeed.
    <bullet> Young people must be allowed immediate enrollment and 
records must be transferred promptly. Federal law should ensure that 
all homeless and foster youth are allowed to attend school without 
delay. It should ensure that their records are transferred promptly so 
that they can receive credit for their previous work, and so that gaps 
in their education are not missed.

    Ultimately, the stability I now have in my home life has helped me 
succeed. I've lived in my current placement for 3 years. My current 
foster parents support me and have helped me to advocate for my 
educational needs.
    On behalf of the half million children in foster care and over 1 
million homeless children in America, I urge you to invest in their 
educational stability. We all know that when we invest in the quality 
of a young person, we ensure that, as adults, they have the opportunity 
and ability to achieve their potential and goals, enjoy a higher 
standard of living, and help make our country stronger.
                                 ______
                                 
    Chairman Harkin and Senator Enzi, and members of the HELP 
Committee, thank you for inviting me to share my story and talk about 
some of the issues that I know affect many other homeless and foster 
children. I'm not an expert on policy but I have been affected by child 
welfare policies and I hope my experiences can help you make choices 
that will improve the system. I thank the members of the committee for 
their commitment to creating a better life and a brighter future for 
the half a million children who are living in foster care today, and 
for the 1 million children who are currently homeless.
    My name is Kayla VanDyke. I'm 18 years old and have lived in seven 
different foster care placements and gone to 10 different schools since 
I was four. I've experienced homelessness, have lived in a shelter, and 
have been separated from siblings along the way. But I'm pleased to 
tell you, despite the statistics that suggest that roughly half of 
foster care and homeless youth do not finish high school, I will be 
receiving my high school diploma in 4 weeks. I'm on track to attend 
Hamline University in the fall, right after I complete an internship 
with FosterClub, the national network for young people in foster care.
    There were things that worked in my life and education and there 
were things that made it very hard for me to adapt. I think I've been 
lucky enough to have an underlying awareness of the importance of 
education, which has always been my main motivator. I noticed from a 
young age that there was one main difference between my family and the 
people I considered successful and happy: they had an education, my 
family didn't.
    I went into foster care for the first time when I was four. I'm not 
sure how many times I moved at this time, but I stayed in placements 
with my sibling for nearly 3 years until I was given back to my mother, 
which is when I experienced my first school change.
    Then, at the beginning of fourth grade, my family became homeless. 
I completely stopped attending school, so I have no fourth grade 
education. I remember feeling very disoriented as to where I was and 
why I couldn't go to school. We stayed with a family friend for a few 
months until we were accepted into a homeless shelter for families in 
Minneapolis. It was September by then, and I can remember thinking, ``I 
should be going to school soon.''
    I recognize that during that time period, new Federal policies 
under McKinney-Vento had just passed. Perhaps, had they come just a bit 
earlier and had they been fully carried out, things would have been 
different for me. Maybe a McKinney liaison would have helped to locate 
me and ensure that I was enrolled in school. But I'm not sure if anyone 
would have tracked me down even if McKinney had been enacted years 
earlier. That's because many school districts fail to identify and 
enroll all the homeless youth in their communities because McKinney-
Vento is underfunded. Clearly, McKinney-Vento should be strengthened 
when No Child Left Behind (NCLB) is reauthorized so that other homeless 
kids don't slip through the cracks like I did that year.
    After we left the shelter and when I showed up on the first day of 
school for fifth grade at Lake Harriet Elementary School, there was no 
record of my education in St. Paul, but no one pressed the issue and I 
was allowed to enter classes.
    During this time, my academics had really suffered due to all of 
the school I had missed, the emotional stress I was under, and the 
general chaos I had experienced. I was used to being the most motivated 
and smartest person in the class. However, because of my educational 
hiatus, I could barely keep up. I was also ashamed of my home life and 
tried hard to hide the fact that I was living in a shelter from the 
other students. I became really depressed and withdrawn.
    Later in fifth grade, I started receiving help from a counselor who 
donated her time to the shelter where I lived. She helped me overcome a 
lot of the emotional pain I had been experiencing as a result of my 
homelessness and educational struggles. In turn, I began feeling more 
comfortable at school and became engaged in activities. Not only did 
she guide me, but she also helped me gain access to resources like 
scholarships for summer camp--I ended up going to the YMCA camp and for 
once just feeling normal. Every homeless and foster youth should have a 
liaison or advocate like I did--someone to assist a child like me who 
was struggling to keep up. While McKinney-Vento provides homeless youth 
with liaisons, these liaisons often don't have the time, training and 
capacity to fulfill their responsibilities because the program is 
terribly underfunded. When NCLB is reauthorized, this problem should be 
addressed,
    I also think foster youth should have access to scholarships for 
extra curricular activities as well as the option of having either a 
counselor or therapist to work as their advocate. Looking back, I 
realize now the huge difference these things made for me. Without 
access to these opportunities or my counselor, I am not sure that I 
would have had the motivation to overcome the difficulties I was having 
at home and in school. I wish that every young person who is 
experiencing trauma--whether it be homelessness or a challenging time 
in foster care--could have this experience with a person who is 
understanding and dedicated to providing the support a kid like me 
needs.
    At the end of that summer, my family moved from the shelter to a 
low-income housing complex in Burnsville--another school move for me.
    But then, a little less than 2 years later, my siblings and I re-
entered the foster care system. We were placed in a respite home for 6 
months, but then were moved again to a foster home which required yet 
another school move. I really wanted to stay at my old school where I 
was doing well academically and had finally found a best friend. But as 
a foster youth who was never quite sure about where I would be moved 
next, I didn't want to inconvenience my new family by asking for rides 
to my old school, even though it was minutes away, and even though I 
would have been able to attend the school because Minnesota, unlike 
other States, has an open enrollment policy. It never really occurred 
to me that attending my old school would even be an option.
    Just like the McKinney-Vento Act gives homeless youth the option of 
remaining in their old schools, NCLB should also provide foster youth 
with this option. Transportation must be provided for this option to be 
real. I think that remaining in one's old school should be offered up 
as an option, for kids like me who don't think to ask, or feel like 
they shouldn't rock the boat for fear of losing their place to live.
    In 9th grade, my sister and I were moved out of our foster home due 
to abuse that was taking place. I moved to another school, but since it 
was a move up to high school, many of the other kids were new, too. It 
was at this time that I started to recognize the impact that my many 
school moves had on my education. All the schools I attended taught 
portions of the courses at different times, so when I moved schools I 
might completely miss one-half of the year's lessons and re-learn what 
I had already learned at the other school. When NCLB is reauthorized, 
the new law should minimize the number of times foster and homeless 
youth have to change schools. When they must move, the reauthorized 
NCLB should ensure that their records are transferred, that they don't 
lose school credits, and that they receive the help they need to bridge 
any gaps that might occur because they changed schools.
    In 10th grade, I changed homes one more time, this time for good. 
This also meant another change in schools. I've lived in my current 
placement for 3 years. The stability this provided me allowed me to 
connect with people at my school and in my community. These people 
include my foster mother, social worker, therapist and two counselors 
from my previous schools, who all worked as a team to help me 
accomplish my goals and connect me to resources. Not only did they help 
me catch up academically, but they were also crucial in helping me 
stabilize my emotions. It was amazing--to have a team of people who 
cared about my success and could help me accomplish my goals. Every 
homeless and foster child should have a team like I did. When NCLB is 
reauthorized, the law should help ensure that child welfare and school 
district staff work better together to address the educational needs of 
every foster youth.
    My sophomore year was successful because I had a support group that 
gave me choice, support and access to things I was interested in. At 
this time, I was able to experience something that I think is pretty 
unheard of in foster care. I was able to become an exchange student. 
When I came back from my exchange experience, I chose to go to a 
different high school that was smaller and more catered to my 
educational interests. Yes, it was a school move, but it was 
different--because I got to choose. I finally had a stable loving home 
and a school I felt comfortable in. The result was that my grades 
finally started reflecting what I was capable of intellectually.
    However, it couldn't erase the fact that I had skipped major steps 
in my linear education. Math and Science have always been my weakest 
subjects and despite my efforts to learn what I have missed, the fact 
that I have gaps in my education has hindered my ability to both learn 
and take crucial tests. Like many other homeless and foster children 
who score significantly lower than their peers on standardized tests, I 
failed the Minnesota Comprehensive Assessment of math and only scored a 
21 on my ACT. While that may not seem so bad, it is for someone who 
knows they're capable of more. The effect of this has also snowballed 
into my having difficulties getting into college. Since coming to my 
current school, I've been mostly an A and B student, but I know the 
inconsistencies in my education have hindered my ability to excel in 
areas like math and science.
    Not to worry--my social studies and English skills have made up for 
my short-comings and I've been accepted into college. It may not be the 
first college of my choice, but I know that I will succeed.
    I also know that if it were not for the support I received and my 
awareness of how important education was for me to get out of the 
poverty cycle, I could have ended up like my sister or like many other 
foster youth. While my sister is currently surviving, she never had the 
chance to pursue higher education or receive support in achieving her 
goals. In fact, because of the school and placement moves she 
experienced, she barely finished high school. I know there are a lot of 
stories like my sister's. That's why my ultimate goal would be that 
more young people have good supportive experiences like I did in my 
sophomore year.
    To summarize, for the half-million children in foster care and over 
1 million children who are homeless, the following NCLB reforms are 
critical.

    <bullet> School stability must be ensured. Foster youth should be 
able to stay in the same school when it's in their best interest. 
Transportation must be provided in order for this to be possible.
    <bullet> Young people should be allowed immediate enrollment in 
school and their educational records must be transferred promptly.
    <bullet> Dedicated liaisons and coordinators should be provided for 
all foster and homeless youth. These critical adults must have the 
training, time and capacity to serve vulnerable children who are caught 
up in the type of circumstances I experienced.

    We all know that when we invest in the quality of a young person, 
we ensure that, as adults, they have the opportunity and ability to 
achieve their potential, enjoy a higher standard of living, and help 
make our country stronger.
    Thank you all again for this opportunity.

    The Chairman. Kayla, thank you very much for being the 
capstone on all of the testimony we heard before. You are a 
remarkable young woman, remarkable. We wish you the best in 
your future endeavors.
    Ms. VanDyke. Thank you.
    The Chairman. Hamline University?
    Ms. VanDyke. Hamline.
    The Chairman. Hamline University. Where is that?
    Ms. VanDyke. It is in St. Paul.
    The Chairman. St. Paul.
    Ms. VanDyke. Minnesota.
    The Chairman. Minnesota.
    [Laughter.]
    Ms. VanDyke. He knows.
    The Chairman. That is very remarkable.
    Kayla, just one thing, I heard it both from you and Ms. 
Ross, and that is the provision of attending the school of 
origin.
    Ms. VanDyke. Yes.
    The Chairman. You put a lot of emphasis on that. So did 
you, Ms. Ross. Just tell me again in your own words, you have 
said in your statement your original school was only just 
minutes away, but you just felt like you couldn't impose upon 
your foster family to drive you there.
    Ms. VanDyke. I didn't know it was an option in Minnesota to 
even go to your original school. There are two major points 
there. One is the emotional well-being of the student. You make 
a friend group. It is very important for children to feel 
comfortable and stable, to know the teachers, feel comfortable 
in the environment.
    When you move someone, especially in the middle of the 
year, they are starting off. They don't have friends. They are 
already experiencing a lot of emotional trauma from the move, 
trying to adjust to their home life as well as their school, 
and that can make learning very difficult.
    It is also, like I said, that educational gap. Schools do 
not teach the same thing at the same time. And when you change 
schools, you may be relearning what you already learned. You 
may have completely skipped a section of your education, and 
there is no way to really make that up without completely 
repeating a year.
    The Chairman. Let me just say you are a well-spoken young 
woman.
    [Laughter.]
    As one of my daughters would say, you are kind of awesome. 
Boy.
    [Laughter.]
    One of the positive things that the No Child Left Behind 
Act did, and I have said this before, was it really has shown a 
bright light on the achievement gaps that persist especially 
for students with disabilities. Now, as we look at this, the 
one thing I keep hearing from all of you--and I have said to 
Senator Enzi, we heard from other witnesses--is this idea of 
getting a growth model, basing things on a growth model rather 
than trying to get close to some unattainable goal.
    I wanted to ask again Ms. Hundley about that in terms of 
students with disabilities. Right now, nationwide, about 64 
percent, 65 percent of people with disabilities are either 
underemployed or unemployed. But yet you have had a great 
success in getting people employed and into higher education.
    It almost seems like you had a growth model that you were 
using in how you dealt with students with disabilities. Can you 
expand on that just a little bit more?
    Ms. Hundley. I will have to be candid. What I told my staff 
when we saw the AYP targets was don't worry about the targets. 
Do what needs to be done. The motto we have in Littleton is, 
``Do whatever it takes.'' And if it means job coaching, hand 
over hand, on the job, if it means finding the employers then 
we continue to say to them, ``Please persist. Don't give up on 
our child.''
    We do a lot of individualized job placement, a lot of 
individualized coaching. The parents are clearly a partner. We 
do a lot of planning with families for what their priorities 
are. So that child getting into that job or getting into higher 
ed is not solely our doing. It is also a result of what the 
family has stated with the child what that level of support is.
    But, yes, ours is very much based on where the child is 
now, where they need to go, then planning backwards for how to 
get them there.
    The Chairman. I am very intrigued by your followup. You say 
you do that for 5 years after?
    Ms. Hundley. For the past 5 years, we call 1 year out.
    The Chairman. One year out.
    Ms. Hundley. The reason we have only done 1 year out, and 
many people have said to me, ``Why don't you do it 5 years, 10 
years?'' It is hard to find the student, and it is hard to find 
the parent. Phone numbers change, e-mail addresses change.
    The Chairman. What do you find from that 1-year followup? 
Do you get good information about maybe changing how you did 
this or how you did that or--
    Ms. Hundley. The kids have said to us, a teacher made all 
the difference in the world for me. Most of them say, ``I wish 
I was a better reader. I wish I was a better writer, and I wish 
I could do math.'' But that is OK because my cell phone has a 
calculator. That is pretty consistent.
    [Laughter.]
    Here is one other point. Many young adults with 
disabilities do not want to be viewed as a young adult with a 
disability. So when we call them, they are reluctant to talk to 
us because they have already moved into thinking they are a 
young adult with ability.
    The Chairman. That is what we have been trying to do since 
ADA does not look at a person's disability, but look at what 
they are able to do and focus on that. So I thank you for that.
    Senator Enzi.
    Senator Enzi. Thank you, Mr. Chairman.
    I will begin with Ms. Hundley. Groups are divided on 
whether or not a student's individual education plan, IEP, 
should also be used as an accountability tool. Does the 
Littleton County School District use IEPs in this fashion, and 
why or why not, and what do you think about it?
    Ms. Hundley. Are you also getting to the external 
assessment as an accountability tool? Or do you just want me to 
respond to the IEP question?
    Senator Enzi. Primarily the IEP question for right now. We 
will do the other one in writing.
    Ms. Hundley. IEPs are essentially a contract for that 
individual student, and the goals and objectives that are 
developed are specific to that child's goals related to their 
disability. I believe it is in some part an accountability tool 
in terms of our contract with that child and that parent. But 
in terms of an accountability tool for that child's achievement 
and setting the bar high, I think that we don't necessarily 
have an automatic assumption of how high that student can 
perform without a little bit of external pressure.
    The IEP is more gauged around, what is possible for you to 
achieve in a year, and it is always disability specific, as 
well as utilizing a child's strength. But I don't think it 
gives us the adequate pressure or the adequate objectivity that 
we need in looking at setting the bar as high as we can for 
student achievement.
    I am not discounting it. I think it is part of our 
accountability system, but not the only.
    Senator Enzi. Thank you.
    Ms. Ross, through the McKinney-Vento program, the Federal 
Government has placed a lot of requirements on the school 
districts in terms of services they are required to provide for 
the homeless students, and you and Kayla have talked about 
these students being uprooted if they get permanent housing and 
for other reasons.
    Have these reporting requirements resulted in better 
service for homeless students or more paperwork and red tape 
for you and your office? Are there some things we ought to 
streamline or eliminate?
    Ms. Ross. Well, I think that more so than eliminating, I 
think there are areas that can be strengthened. And the big 
piece, as Senator Harkin asked about earlier, the school of 
origin directly correlates with transportation, and 
transportation is like the primary backbone, I guess I would 
say, for McKinney-Vento. Transportation is needed to the school 
of origin.
    For those of you that don't know, school of origin would be 
the school they attended prior to becoming homeless. Because 
the transportation costs are astronomical to the tune of in our 
school system last year, we spent over $5 million on just 
transportation for homeless students. Because of that 
astronomical cost, some school systems are under identifying, 
and there is pressure on staff to under identify homeless 
students.
    So a couple of things, if more funding can be put in place, 
if there could be separate funding and separate agencies being 
responsible for homeless and foster children because I do agree 
that the needs mirror each other.
    The other piece that you touched on is I don't think the 
law is written strong enough and specific enough so that school 
systems realize that just because a family obtains permanent 
housing or regular fixed adequate night-time residence mid-way 
through the school year that you pull the transportation 
services, and therefore, the kids can no longer go to the 
school of origin unless they can provide their transportation.
    I like to refer to that part of McKinney-Vento, the school 
of origin as the calm in the midst of the storm. So there are 
things that need to be strengthened.
    Senator Enzi. I appreciate that. I am not real familiar 
with that because I am from a very rural area. And so, if they 
get accommodations in the community at all, it is still the 
same school. If they go to another town, the transportation 
wouldn't be the cost. It would be the time. Children might have 
to ride on a bus for an hour and a half each way.
    So I appreciate the additional information and emphasis 
there, and I need the introduction to the urban atmosphere as 
well. So thank you.
    Ms. Ross. Yes. Thank you.
    Senator Enzi. Ms. Medina.
    Ms. Medina. Yes, sir.
    Senator Enzi. There are a lot of concerns about the 
requirements for documenting whether or not children qualify 
for migrant education programs. How has your program worked 
with families to document eligibility?
    Ms. Medina. In Pennsylvania, we have recruiters. These 
recruiters are very well known in the community. They are in 
communication all the time with school districts, with the 
growers, with the different agricultural businesses in the 
area. Even by word of mouth, the program has been identified.
    We have, as an issue from our Federal office, a national 
certificate of eligibility, where there is specific questions 
that address the eligibility of the children, as I mentioned 
earlier in my testimony. These recruiters will ask these 
questions to the families to ensure that the child qualifies 
properly.
    I am talking on behalf of Pennsylvania--after the 
certificate is completed, we have a verification process where 
we have committees that will review all the information 
obtained, and we will secure verification of that information. 
In other words, if the family said that they came to the area 
to work, for example, at Tyson Foods processing plant, but they 
came and they are no longer hiring, we already had made good 
relationships with those companies that we can talk to the 
companies and they will verify the information.
    As soon as the information is verified--and we are very 
strict, we have a 7 working days limit to have all the 
information collected and verified--services will start 
immediately.
    Senator Enzi. Thank you, and I have questions for both 
Kayla and Dr. Hinojosa, too. I appreciate your testimony and I 
will submit those questions in writing. I appreciate your 
response.
    Thank you.
    The Chairman. Thank you, Senator Enzi.
    Next I have Senator Franken.
    Senator Franken. Thank you, Mr. Chairman.
    Ms. VanDyke, Chairman Harkin's daughter would call you 
awesome. I am sure a lot of people would. I think that your 
current foster parents are probably pretty awesome, too. Is 
that right?
    Ms. VanDyke. Yes, they are.
    Senator Franken. Senator Enzi brought up a few things about 
and led to the school of origin. Some of the parents that you 
had probably--foster parents weren't so awesome. Is that 
correct?
    Ms. VanDyke. No, not all of my foster care placements were 
successful, and there is a number of reasons for that. Do you 
want me to go over them?
    [Laughter.]
    Senator Franken. I know you would like to. But the reason I 
bring this up is, is that the importance of transportation. 
Because when you talked about you really not knowing, as a 
foster child, that it was your option to go to a school of 
origin. But I remember reading that you wouldn't, didn't want 
to ask your new parents to provide the transportation, even 
though, Senator Enzi said, it was only a few minutes away.
    Ms. VanDyke. Exactly. It goes back to that emotional 
stability. You are in a new home. You don't know these people. 
They have already made accommodations for you. You feel like a 
burden. So, when you go out of your way to ask for yet another 
accommodation, it just feels like you are more of a burden to 
the family.
    Especially when you are used to moving a lot, you want to 
make a good impression. You don't want to rock the boat so that 
you are seen as a burden. You are seen as someone that isn't 
manageable, and so----
    Senator Franken. Obviously, they sort of--these foster 
parents didn't make you feel like you could say, ``Hey, I might 
want to get a ride every day to my old school?''
    Ms. VanDyke. Yes, absolutely.
    Senator Franken. This is why Senator Murray and I have 
introduced a bill and part of it is to address this problem, 
the Fostering Success in Education Act, and it would require 
school districts to collaborate with child welfare agencies to 
enable foster youth to remain in their old schools. Part of 
this would be providing some kind of arrangements or funding 
for transportation.
    If that requirement existed at the time, would that have 
changed things for you, made them better?
    Ms. VanDyke. It actually depends. I mean, if I had known 
about it, it would have changed it perhaps. Like I was talking 
about liaisons and counselors, those people who can actually 
just communicate with a foster/homeless youth to tell them what 
is available, I think that is important.
    Because you can have as many resources on the table as you 
want, if foster/homeless youth can't get access to them, if 
they don't know about them, they are just going to sit there. 
You need to make these options accessible to people.
    Senator Franken. Well, that is part of this bill, too, to 
make those people--to make liaisons and counselors accessible 
and also give them time and training to be accessible to you so 
that they can help the foster child. What difference would that 
have made if you had that earlier?
    Ms. VanDyke. If I had that when I entered into fifth grade 
at Lake Harriet, first of all, the fact that I was allowed to 
enter in so quickly was due to a collaboration between the 
shelter I had been living at and my school. So that was, again, 
the real importance of collaboration.
    However, if they had contacted my school in St. Paul, they 
would have realized that I didn't have that fourth grade 
education. I would have gotten the opportunity to repeat the 
fourth grade to make up for what I had lost in my education. At 
that point, if there had been a liaison there, I probably would 
have gone into the foster care system immediately because of my 
home situation.
    I probably would have been adopted right now. My education 
would probably be that of a normal high schooler.
    Senator Franken. So, essentially, you have missed a grade 
of school.
    Ms. VanDyke. Yes.
    Senator Franken. You missed fourth grade. So you have a 3.7 
despite missing fourth grade.
    Ms. VanDyke. Yes, I have really had to----
    Senator Franken. So you skipped a grade, even though that 
wasn't quite your intention at the time.
    [Laughter.]
    Ms. VanDyke. I have really had to work the last year and a 
half in my stable placement to really get my grades up, and 
that is a product of being in a stable placement and having 
those choices and options.
    Senator Franken. So, and if you had had that extra year, if 
you had had that year----
    Ms. VanDyke. I think I would have been a 4.0 student. I 
know I would have been accepted into the university or any 
other school I applied to. I consider myself a good student. I 
love learning, and if I had had the kind of opportunities that 
just normal students have had, having that linear education, 
that uninterrupted education, I am sure I would be in an even 
better place than I am now.
    Senator Franken. Well, my prediction for you is a bright 
future. Thank you.
    Ms. VanDyke. Thank you.
    Senator Franken. Thank you, Mr. Chairman.
    The Chairman. I will now turn to Senator Mikulski.
    Senator Mikulski. Thank you very much, Mr. Chairman.
    I would like to pick up on what Senator Franken said. My 
own background before I came into politics was that of a social 
worker, and I started out as a foster care social worker and 
later became a protective service worker.
    So my heart goes out to you and what you have done, and I 
would just like to congratulate you, Senator Franken, on what 
you and Murray are doing. I would like to be a co-sponsor of 
that, please.
    Senator Franken. Please. Thank you.
    Senator Mikulski. I just want to bring to the Chairman's 
attention, the foster care system is broken in this country, 
and I think we have to really put that out on the table. We 
have watch lists to track terrorists, but we don't have a 
tracking system to see where our own children are when they are 
uprooted.
    Here, we have talked about the homeless child, the foster 
child, the migrant child, the child coming from another country 
in hope of the American dream. All of the children we have 
talked about in some way are uprooted children, and if they 
can't be connected to a home--they at least need to be 
connected to a school system, which becomes their home by 
proxy.
    As we work on this, one strategy is to look at the broken 
system, but also many of the children get lost because they are 
the uprooted children. I don't mean to give a speech about 
that, but I feel very strongly about it, and I would like to 
compliment all of you who work in this incredibly challenging 
field.
    Ms. Ross, your recommendations are outstanding, but I want 
to go to Ms. Hundley for a minute because she talks about 
workforce. We have talked about requirements, the growth model, 
which I think is excellent. We always talk about resources, but 
another thing we must consider is what are the workforce needs, 
and how do you think we can best address them?
    Whether it is direct support for teachers, or school 
support. It is obvious we need to talk about social workers, 
nurses, as well as the devoted counselors that help the kids 
have someone to talk to. You have talked about it in your 
testimony, but what concrete things would you recommend to both 
bring people into the field, and help them stay in the field?
    Ms. Hundley. Are you talking about special education staff?
    Senator Mikulski. Yes. I am talking about services along 
the lines we are talking about, yes.
    Ms. Hundley. I am a strong believer in some kind of a 
mentoring type of program. There needs to clearly be 
incentives, and I could broaden this beyond special education, 
I am sure, to some other folks that my colleagues here might 
also be concerned about shortages.
    In Colorado, we have a Teacher in Residence program that I 
think has merit to potentially expand.
    Senator Mikulski. That is the program, but is it funded in 
the law?
    Ms. Hundley. No.
    Senator Mikulski. I am not going to be the school 
superintendent. We need to be able to say what are the specific 
things that need to be done that isn't included in the law?
    Ms. Hundley. I would put that under the category of 
incentives to develop programs to draw people into higher ed or 
who are already placed. In the Teacher in Residence program, 
they are placed already in a contracted, full contract for a 
teacher teaching students with disabilities, and they are a 
full-time student as well.
    It is organized so that they get the training and support 
at the theoretical level in the classroom and mentoring on the 
job, hand over hand coaching on the job site. There are 
incentives for them. I do not know if it is federally funded or 
if it is State funded. It is a State school that we are 
partners with.
    But I guess I would categorize, to get to your question, 
how could there be incentives in the law for higher education 
to develop an alternate model--
    Senator Mikulski. No, I don't want it in higher ed, right 
out there in the field.
    Ms. Hundley. Oh, you are talking about a job--yes. OK. I am 
sorry.
    Senator Mikulski. OK. Well, my time is starting to run out 
here. So one is to attract people while they are in school.
    Ms. Hundley. Yes.
    Senator Mikulski. But then once they go into the field, if 
they are going to be measured the way we are with our Race to 
the Tops and ``whoo-ha-ooh-ahh''----
    [Laughter.]
    I wish our banks were as regulated as our teachers. The 
fact that then the teachers are evaluated based on an ideal of 
student achievement, rather than the growth model that is 
suggested here. Why wouldn't you pick a cushy suburban school 
with a lot of resources and parental involvement when you are 
going to be evaluated in such a stern way?
    So the question is that, No. 1, how we should evaluate our 
teachers and how should we evaluate our children. The second is 
how do we get people to come into a field that is tough? You 
know, my work as a child abuse worker so many years ago left a 
searing and indelible mark on me because of what I saw when 
working with these children, and their mothers. So this is not 
an easy field to be in, and each and every one of you are in 
it.
    Ms. Medina.
    Ms. Medina. Yes, I shake my head because my husband is a 
children and youth emergency worker as well. So I understand 
what the children are going through. Specifically, with migrant 
families, the children fall through the cracks because in the 
system a lot of times they can see where the child is while 
their living crop is going to be over in October--
    Senator Mikulski. Isn't it hard to find people--I am not 
minimizing.
    Ms. Medina. Yes.
    Senator Mikulski. But I am back to how do we help the 
children? Doesn't it take a very highly unusual and specialized 
person to work with these students who have such unique 
challenges?
    Ms. Medina. Yes. Yes, and in Pennsylvania, we have a 
position under the migrant program on the field called student 
support specialist that dedicate their time, and they get 
trained. We spend hours and manpower, training them to provide 
those skills because, unfortunately, when they come to the 
field to work, they really don't know the reality of the job, 
and it is working with children with so many obstacles. And we 
provide hours.
    One of the things that we are doing in Pennsylvania now as 
teacher preparation is we are including 150 hours of field work 
where the upcoming teachers are going to be going to different 
settings, and they are trying to match them on settings where 
they don't reside. In other words, if they are coming from 
rural----
    Senator Mikulski. Right.
    Ms. Medina [continuing]. Then work in an urban or suburban 
school and volunteer. This is volunteer work.
    Senator Mikulski. Well, that is excellent, Ms. Medina.
    I know my time is up, and I really would look for and will 
followup with questions. But really, my questions are how do we 
both recruit and retain the workforce and also what support 
services are needed, which aren't currently included in Federal 
law?
    My time is up. Mr. Chairman, I just want to make one 
observation for another population that I think needs special 
attention, and that is our gifted and talented children who are 
often isolated, often lonely. There is a myth that, somehow or 
another, only rich kids are smart. And also really smart kids 
don't need extra help.
    I think the work that has been done at Hopkins and the work 
we see in our communities proves that is not so. I know this 
committee shares the belief that intelligence and ability is 
randomly distributed through the population, and there is a 
gifted and talented kid in every barrio, as they are in an 
affluent community. So I would hope we would also look at the 
gifted and talented children.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Mikulski.
    We have one here with us today in Kayla VanDyke.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    I apologize I was not able to be here for the testimony of 
each of you. I have had an opportunity to look through your 
written comments.
    But I was meeting with a small group of Alaskans that is 
involved with a science and engineering program designed 
specifically for Alaska Natives. It is one that I can get very, 
very excited about because we are going into small villages 
where oftentimes the educational opportunities may be limited 
because it's difficult to recruit teachers out in those areas, 
certainly to retain them. We are not able to offer a full 
complement of the sciences in physics and higher calculus.
    What this program is demonstrating is that when the 
expectations are set high, when you know that as a junior in 
high school, you can take apart and rebuild a computer and make 
things work and figure it out on your own, all of a sudden, the 
world opens up to you.
    It is just a reminder to me about the expectations that we 
have for our students, whether it is those with limited English 
proficiency, whether it is those with disabilities, whether it 
is those that have a home life as has been described here that 
is exceptionally challenging. But again, it comes back to the 
expectations that we have of our young people.
    Mr. Hinojosa, I want to ask you about the flexibility that 
we have to assess students in their native languages. I am a 
big proponent of language in the schools, immersion languages 
in the schools. My kids were beneficiaries of that in the 
public schools in Anchorage.
    I have been working to encourage, particularly in our rural 
communities, that our students have access to their native 
cultural languages, and be instructed in that. We are seeing 
that a real demonstration of school is now much more relevant 
to our kids.
    But we are in a situation where you are not able then to 
assess in the native language necessarily because either you 
don't have enough speakers of the language or it doesn't lend 
itself to the formal assessments, and that is what we are 
finding with Yupik instruction, for instance. What is your 
recommendation for assessing student academic proficiency when 
the assessment is not in the child's first language? How do we 
deal with this?
    Mr. Hinojosa. Senator, that is certainly a huge challenge, 
and we are very fortunate in Dallas that 96 percent of the 
students that we have, Spanish is the language. But we get 
refugees from Afghanistan, the Congo, Somalia, and we have that 
similar difficulty as you describe in Alaska because it is a 
very critical point.
    Because if you cannot determine the student's proficiency 
in their native language, then it is very difficult to 
prescribe what needs to happen next. And so, that is a critical 
point. We seek volunteers. We have a lot of community agencies 
that do help us out whenever we don't have staff to help us 
determine that.
    But that is a critical point that local resources have to 
come in and help because we really believe that if you can get 
proficient in your native language, it is much easier then to 
transfer and become literate and proficient in a second 
language. Many of the students that we get, we get students in 
high school that have never held a pencil. They have never worn 
shoes, and they come from the Congo, and we have a huge 
challenge to get them prepared to be successful academically.
    I don't have a silver bullet answer for you, but we know 
that it is a smaller issue for us, since only 4 percent of our 
students fall into those kind of categories. But I can just 
imagine--but it is an issue to be focused on because it is 
critical that we understand that is a big part of what has to 
get accomplished.
    Senator Murkowski. Well, and I think we recognize whether 
it is Alaska Natives or we see with our American Indians, when 
we can incorporate the native culture into the education, I 
think we are seeing a resurgence in interest in what is going 
on in the classroom. Again, the relevance. But if we can do 
more with incorporating the language, I think that that helps 
us. But we struggle with then how you deal with the assessment.
    I want to ask you just one more quick question here, and 
this also relates to how we deal with it with the testing. You 
have recommended that we codify the current regulation that the 
LEP students not be required to be tested in their first year 
here in the United States. And I don't have any problem with 
that, certainly.
    We have an interesting situation going on in Alaska. You 
might not think about it, but we have a pretty significant 
Hmong population in Anchorage. So what has happened is they 
have come to California. That has been where they have come 
into the United States. They have been provided instruction in 
Hmong there in California. Then they come to Alaska.
    They have no English proficiency, but they are not eligible 
for this exception because they have been in the country now in 
excess of a year. And so, we struggle. What do we do at this 
point in time? Got any answers?
    Mr. Hinojosa. That is a difficult challenge because we do 
want to be held accountable. One of the best things about the 
previous law is that now we are held accountable for all 
student groups, and yet there needs to be some reasonableness 
in the law----
    Senator Murkowski. Got to have some flexibility there 
somewhere.
    Mr. Hinojosa [continuing]. And some flexibility for 
situations like that that occur. Certainly, I don't know how to 
draft a bill, but that would be something that would be 
important to consider in a kind of situation that you describe 
because now they are in their second year, and now the stakes 
get very high.
    Senator Murkowski. Right. Well, if any of you have any 
suggestions that you would like to provide to us as we work on 
this, we would certainly be appreciative.
    Thank you all.
    The Chairman. Thank you, Senator Murkowski.
    Senator Bennet.
    Senator Bennet. Thank you, Mr. Chairman.
    I apologize that I was away. That is the worst manners 
possible--to come back and ask questions, but I wanted to get 
one to Ms. Hundley and one to our superintendent.
    You mentioned in your opening testimony the importance, as 
we think about the reauthorization of this law, of maintaining 
or creating the flexibility that you need to build capacity. I 
just want you to take a few minutes to underscore what you mean 
by that so the committee can hear it because I agree that it is 
enormously important.
    Ms. Hundley. Are you referencing my request for flexibility 
in use of funds?
    Senator Bennet. Yes.
    Ms. Hundley. I am happy to expand on that.
    Senator Bennet. Thank you. I thought you would be.
    Ms. Hundley. When Federal funds are currently only able to 
be used directly for supports for students with disabilities, 
meaning direct service, and they are driven by licensure laws 
that you can only use them for staff that are licensed in 
special education, our hands are tied. Special ed folks may not 
be the right folks to do the literacy instruction for an 
adolescent who is struggling in reading and who also has a 
disability.
    We also need to be able to build capacity in general ed 
folks to understand how to differentiate how to make 
accommodations, how to modify curricular focus. We need to have 
special ed folks be trained in general education supports by 
general educators, and all of that costs money. So a lot of 
that is around training and building capacity, but it is also 
about paying the right people to do the right kind of 
instruction as we are pushing for these high achievement goals.
    Senator Bennet. I think it is just such a tremendous 
illustration of what happens sometimes when we pass laws here 
in Washington and don't pay enough attention to what is 
actually going on on the ground. The chairman and I have talked 
about this before in terms of transportation of special ed 
students in the Denver Public Schools.
    We were spending, partly because of the law, partly because 
of habit, roughly $9,000 a child to transport them a year in 
the Denver Public Schools, which is money that could have been 
used to support the work that you are talking about, to provide 
services to kids. Transportation is an important service, but 
we need to figure out how to write these rules rationally, I 
think, so that you have the flexibility you need, and I 
appreciate it.
    Mr. Superintendent, it is great to see you, and this is a 
question that is unfair. If you want to answer some of it in 
writing, I would love to take your answer. But as you step 
back, having had the successful tenure you have had, and 5 
years in one of these jobs is an extraordinary achievement. But 
to have gotten there and to have survived is great, and it is 
great to see you.
    When you look at this entire reauthorization and you think 
about the pain points that you have in doing what you want to 
be doing on a daily basis in Dallas, share with the committee a 
little bit what you would do if you were sitting up here to 
rewrite the legislation so that it helps support the work that 
you are trying to do.
    Mr. Hinojosa. Well, I am sure I can cover all of that in a 
minute and 54 seconds.
    [Laughter.]
    I am from South. I speak slowly. So I don't know if I can 
get it all in. Certainly, thank you for the opportunity to give 
some input.
    There are a lot of points that can be addressed. 
Specifically, right now, districts are required to have 
outside--reserve 20 percent of our funds in title funds for 
outside providers to provide interventions. Sometimes, people, 
the students get recruited with flashy laptops or cell phones 
to come sign up with one of these providers, and they may or 
may not have an impact on their academic performance.
    For us to have to reserve 20 percent of our funds to do 
that, that just ties our hands to where we could provide the 
exact example that you made about provide direct service for 
these students that we have just described that have tremendous 
needs on the ground right now.
    I think flexibility, going forward, is going to be 
critical. There is not a panacea. There is not a silver bullet 
for any of these. One of the reasons we have had success is 
because of what you describe--we have had the ability to 
implement some of these programs. Before I got to Dallas, there 
had been 7 superintendents in 10 years. A lot of them had great 
ideas, but by the next one, it was gone. So, it is just the 
pressures that you have in trying to implement the system.
    I think one of the previous Senators also brought up a very 
important question. If I am a great candidate for instruction, 
I am a great teacher, and I am going to go to a school district 
that is going to get all these sanctions and get punishment 
because of what the expectations are for me in a very hard-to-
serve community, or I could go to a community that doesn't have 
those pending sanctions coming down, then the higher-quality 
individuals won't be going where the greatest need is.
    We need to look at what are the unintended consequences of 
some of those activities as we roll out great ideas. But on the 
ground, I think what I would implore of you is to continue to 
have forums like this, where you talk to people on the ground. 
Being a former superintendent, you know that we got things and 
sometimes if we didn't have input, we could have pointed out 
some unintended consequences that were coming down.
    I really appreciate having this opportunity to come and at 
least have this input on that one specific item. But going 
forward, I would encourage you to talk to the field and let us 
know, and we can help maybe avert some of the things that are 
really good ideas, but when you get to implementation become an 
obstacle and a burden to implement.
    Thank you, Senator.
    Senator Bennet. Sure. Thank you, Mr. Chairman.
    I appreciate it. I think that it is important for us to 
figure out a way to establish a feedback loop here in real 
time. We have gone between the passage of the bill to the 
reauthorization. We could have gained so much wisdom and 
knowledge from people saying, ``Did you really mean this?'' I 
think we could have changed things that would have made a 
material difference for our kids and for our teachers and for 
all of you.
    Something we tried to do in the district when we were doing 
the reform was constantly take feedback from the teachers, and 
we changed things as a result of that.
    I know that, Ms. Hundley, you and Senator Mikulski had a 
discussion about incentivizing special ed teachers. I just 
would like to give you the chance if there is anything else you 
want to say on that.
    We live in a country where we have had a chronic shortage 
of special ed teachers for decades, and we are in general 
paying people that are in affluent elementary schools--which is 
a hard job. There is no doubt about it. All these jobs are 
hard--essentially the same as we are paying people to be a 
special ed teacher in a high-poverty high school. Do you have 
any more reaction to that or what we could do to help with that 
dilemma?
    Ms. Hundley. Money in one's pocket obviously is a draw, but 
I think we have to recognize what hard work it is. I know your 
question was specific to teachers of children with 
disabilities, but I think that is true for many at-risk kids. 
It is hard work.
    I think we have to recognize that folks need ongoing 
coaching and that turning them out from school, from higher 
education when they haven't had a lot of what I call ``boots on 
the ground'' opportunity, they need ongoing mentoring, ongoing 
coaching. We need to have ways to connect as a school district 
in partnership with higher ed. Higher ed needs to have 
incentives or reasons to partner with school districts to make 
the training real.
    That is why I mentioned the Teacher in Residence program at 
Metro State. They don't have a lock on all the answers, but it 
is a model that we find is working, and it gives people a more 
sheltered opportunity to be trained over time.
    Senator Bennet. One last question for our superintendent, 
which is could you give the committee a perspective on the way 
Washington accounts for money in these different titles and the 
way that might either support your efforts to budget and 
support kids in your school district or contort your effort to 
be able to support the children in your school district?
    Mr. Hinojosa. Yes. It becomes a significant issue in trying 
to implement and trying to marshal your resources, and the lack 
of flexibility in trying to address certain issues. Such 
categorical funding that requires such time and effort, 
documentation from every--if you have an individual that is 
funded out of two different Federal programs or out of a State 
program and a Federal program, they have to have a very 
sophisticated time and effort to document everything that they 
do when the services of the homeless students may be a same 
service that you have a limited English proficient student and 
all these other services.
    That makes it very complex on the ground, and then the fact 
that you have to make sure that everything is addressed in a 
very specific way, whether it is a district improvement plan or 
a campus improvement plan. The principals spend a lot of time 
trying to figure out how to comply with the rules, as much time 
as they do to provide services to the students who need these 
items.
    So there is a lot of complexity. I know we have to be 
accountable for our Federal funds. I know that is an issue. But 
there has got to be a better way that we can make it easier for 
the people on the ground to actually deliver those services. It 
is a balancing act, but we do appreciate the fact that there 
are more resources coming from the Federal Government. We do 
appreciate that, the different things that are coming.
    So it is a lifeblood, especially for urban districts where 
we have all these students with these significant needs.
    Senator Bennet. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Bennet.
    I have a couple of followup questions, and maybe Senator 
Franken does, too.
    Dr. Hinojosa, one of the things that caught my attention in 
your testimony was that districts should be given incentives to 
keep students in school that have not graduated in 4 years. You 
said it should not be a disincentive for districts and schools 
to continue to educate students who will be counted as 
dropouts. Credit should be given for drop-ins.
    Would you expand on that just a little bit for me?
    Mr. Hinojosa. Yes, sir. In fact, we have done an analysis 
of our students. We have discovered that we have close to 1,000 
under credited and over-age students. And when you peel back 
the onion, these students are never going to be counted in the 
graduation rate because they are not going to graduate with 
their cohort.
    These are students that may be 17-years-old and are 
freshmen with recent immigrants and maybe other student groups. 
The schools that have been identified in Dallas that are 
eligible for school improvement grant, almost every one of 
them, the only reason they are there is because they haven't 
had a 60 percent graduation rate in 4 years.
    What we would like to do is we keep these students in 
school, help them accelerate their instruction. We are starting 
a campus for over-age students next year, and we get them 
caught up. Maybe we could have an incentive on the back end. It 
may have been 58 percent that graduated in 4 years, but we got 
kids to graduate in 6 years, and maybe we would get an 
incentive and that offsets some of the liability of the 60 
percent graduation rate.
    We know that is important for us to have, and we would like 
to see for those schools especially that have many students 
that are over age that are unschooled, that we have some 
ability to recapture back up to that 60 percent graduation rate 
at some element.
    The Chairman. I agree, and I incorporated the idea into a 
bill I have called The Every Student Counts Act. I think that 
this is something that we need to get incorporated into the 
reauthorization of ESEA, as well.
    Ms. Medina.
    Ms. Medina. Yes, sir.
    The Chairman. A few years ago, I was contacted at a 
different hat I wear on the Appropriations Committee by Defense 
Department employees who said that one of the problems they 
have with military personnel is when they move from base to 
base, their kids move from one school to the other, and they 
get dropped in the school, and the school doesn't really know 
about the student's background.
    They know they were in the fifth grade. They may have a 
report card or something like that, but they really don't know 
a lot about that child. So, we started a program called a 
Project SOAR. I have watched it over the last few years, and I 
have heard a lot of positive feedback.
    The program established a system that allows school 
districts to better coordinate in order to meet the needs of 
students who have to change schools when their parents are 
transferred to other bases. So, the teachers in the school, 
administrators know right away where that child should be and 
what they need help and support in.
    Would something like that be helpful for migrant workers, 
or do we know where they are going? Do their families know 
where they are going on their next job?
    Ms. Medina. Yes. Two years ago, the Office of Migrant 
Education instituted a system called MSIX. MSIX is a data 
collection system where right now 30 States already have like 
data, and they are doing in cohorts to get the States with 
their data input.
    Your data system is from your basic demographics to also 
credit information where the student gets their own 
identifiable number, migrant number. So if a student is moving 
from Pennsylvania to the State of Maine, that information is in 
the system, and the State of Maine can retrieve the information 
out of that system.
    The goal is that all the information is there for the 
student. So we no longer say, the child is missing credits or 
the information to get them in school and get them at speed as 
well.
    The Chairman. Is that electronically transmitted?
    Ms. Medina. Yes, it is an electronic transmitted system. It 
is called MSIX.
    The Chairman. What is the system called?
    Ms. Medina. MSIX. M-S-I-X.
    The Chairman. Hmm, MSIX. I will have to take a look at 
that. Is it widely used?
    Ms. Medina. It is right now. Thirty of the States are using 
it, and like I said----
    The Chairman. Who pays for this?
    Ms. Medina. It is through funds, through the Office of 
Migrant Education.
    The Chairman. Do we need to get more States to use it.
    Ms. Medina. Yes.
    The Chairman. We need to fund it better.
    Ms. Medina. Also, every State because they have their own 
local offices----
    The Chairman. Yes.
    Ms. Medina [continuing]. As soon as the family notifies 
that the family is moving to another State, they notify that 
State office of the family coming.
    The Chairman. Got it.
    Thank you all very much.
    Is there any last thing that you wanted to impart to put on 
the record at all before we finish?
    Ms. Ross.
    Ms. Ross. Actually, Chairman Harkin, I do. I wanted to 
share, while Senator Franken was here, it is unfortunate what 
happened with Kayla. One thing that I did recommend in my 
reauthorization is increased funding because, as I said, only 9 
percent of the jurisdictions across the country are receiving 
McKinney-Vento funding.
    That is unfortunate because maybe her particular 
jurisdiction did not have the funding, and therefore, there was 
not even an awareness of what the rights were there. There 
obviously was no professional development going on in the 
school. There were no postings in schools or libraries, and so 
people weren't aware of what her rights were.
    One thing I want to encourage is increased funding so more 
jurisdictions do have the money to support and provide foster 
children as well as homeless children with school stability.
    The other thing was Senator Bennet had asked a question, 
and I didn't know protocol so I didn't want to interrupt. He 
asked about flexibility of funding. As I have shared, 
transportation is an astronomical cost for school systems in 
providing transportation to the school of origin.
    We do have something called title I part A setasides, which 
are funds reserved to assist with homeless education. 
Currently, those funds do not allow for transportation to the 
school of origin, and I am going to recommend that there be 
some flexibility in that title I part A setaside of how it can 
be used and maybe do a needs assessment in the process of that.
    Thank you.
    The Chairman. Thank you very much. I understand and my 
staff says they understand that. They got it, OK?
    [Laughter.]
    Thank you all very much. Very, very, very great panel. I 
thank you.
    We will leave the record open for 10 days. There may be 
some written questions that people want to submit to you.
    Sort of following on what Senator Bennet said, and I have 
said this to other panels who have come before the committee. I 
hope that we can continue to keep in touch with you from our 
end, but I hope you also feel free to keep in touch with us. As 
this bill starts to move forward and you see it developing, if 
you think we are going in the right path, fine. If you think we 
are doing something that needs to be changed, we would like to 
know that, too.
    I have a very distinct e-mail address just for this 
purpose. It is <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9edbedfbfffdf1f3f3fbf0eaeddef6fbf2eeb0edfbf0ffeafbb0f9f1e8b0">[email&#160;protected]</a> It is just a 
dedicated e-mail address just for comments on ESEA, and we 
welcome your comments as we proceed ahead with reauthorization.
    Thank you all very much. As I said, we will leave the 
record open for 10 days until May 13th.
    Thank you all very much. The committee will stand 
adjourned.

    [Whereupon, at 11:45 a.m., the hearing was adjourned.]

                              <all>


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
